APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_________
RONRICO SIMMONS, JR.,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
_________
No. 19-1757
_________
Appeal from the United States District Court
for the Eastern District of Michigan at Bay City.
Nos. 1:14-cr-20628; 1:18-cv-12557—
Thomas L. Ludington, District Judge.
Argued: August 5, 2020
Decided and Filed: September 11, 2020
Before: ROGERS, KETHLEDGE, NALBANDIAN,
Circuit Judges
_________
COUNSEL
ARGUED: Jo-Ann
Tamila
Sagar,
HOGAN
LOVELLS US LLP, Washington, D.C., for Appellant.
Patricia Gaedeke, UNITED STATES ATTORNEY’S
OFFICE, Detroit, Michigan, for Appellee.
ON
BRIEF: Jo-Ann Tamila Sagar, Neal Kumar Katyal,

2a
HOGAN LOVELLS US LLP, Washington, D.C., for
Appellant. Patricia Gaedeke, UNITED STATES
ATTORNEY’S OFFICE, Detroit, Michigan, for
Appellee.
_________
OPINION
_________
NALBANDIAN, Circuit Judge.
Deadlines matter, especially in habeas cases. So we
require good excuses to overcome them. One valid
excuse is when the government itself creates an
unconstitutional impediment to a prisoner’s timely
filing of a motion to vacate his sentence under 28
U.S.C. § 2255. That is what RonRico Simmons argues
happened to him here. But he fails to allege facts that
would establish that the supposed impediment to his
late filing actually prevented him from filing earlier.
Without a valid excuse, he filed his § 2255 motion too
late. We AFFIRM.
I
RonRico Simmons, Jr. pleaded guilty to: (1)
“conspiring to possess with intent to distribute and to
distribute a substance containing heroin ... in
violation of 21 U.S.C. §§ 846 and 841(b)(1)(A),” and (2)
“caus[ing] others to use a house to use, store[,] and
distribute controlled substances,” in violation of 21
U.S.C. § 856(a)(1) and contrary to 18 U.S.C. § 2. (R.
37, Plea Agreement, PageID 140–41.) On September
8, 2016, the district judge entered judgment against
Simmons. Simmons did not file a notice of appeal.
Almost two years later on August 13, 2018, Simmons

3a
moved to vacate his sentence under § 2255. On the
same day he also moved to grant timeliness of his 28
U.S.C. § 2255 motion under Section 2255(f)(2).
Under Section 2255(f), the limitation period for
moving to vacate begins to run on the latest of four
dates. 28 U.S.C. § 2255(f). Subsection one usually
governs, meaning Simmons had one year after his
conviction became final to file his motion to vacate. Id.
§ 2255(f)(1). The parties do not dispute the district
court’s finding that Simmons’s judgment became final
on September 22, 2016, his deadline to appeal
(fourteen days after the district court entered
judgment). So he had one year after that—until
September 22, 2017—to file his motion to vacate. But
he did not file until August 13, 2018.
So Section 2255(f)(1)
Simmons’s motion.

would

ordinarily

bar

Recognizing this, Simmons tried to rely on Section
2255(f) (2). That section says “[t]he limitation period
shall run from ... the date on which the impediment to
making a motion created by governmental action in
violation of the Constitution or laws of the United
States is removed, if the movant was prevented from
making a motion by such governmental action[.]” 28
U.S.C. § 2255(f), (f)(2). Simmons explained that, after
his sentencing in 2016, he returned to state custody to
finish serving state time. He was in Michigan
Department of Corrections (MDOC) custody until
December 2016 and served time at Wayne County Jail
for about nine months after that.
Simmons claimed that the law libraries in “MDOC
custody” and at Wayne County Jail did not have

4a
federal law materials. In his motion to grant
timeliness he generally said he “had no access to a
legal library; 2255 Petition; his legal materials or the
Rules Governing 2255 Proceedings[.]” (R. 44, Mot. to
Grant Timeliness, PageID 215.) But later in this
motion he specified that he “had no access to [a]
federal law library; legal materials; assistance by
prison authorities in the preparation and filing of
meaningful legal papers; and no access to the Rules
Governing 2255 Proceedings and AEPDA [sic] statute
of limitations[.]” (Id. at 217.) According to him, these
inadequacies served as an impediment in violation of
the Constitution that “prevented him from having the
ability to timely pursue and know the timeliness for
filing a 2255 Motion[.]” (Id.) He claims he did not gain
access to these resources until September 27, 2017
when he entered federal Bureau of Prisons (BOP)
custody. Thus, the statute of limitations did not start
to run until Simmons had access to those resources
that facilitated his ability to file a Section 2255
motion. And because he filed within a year of gaining
such access (on August 13, 2018), his motion was
timely.
In reply to the government’s opposition to his
motion, Simmons again explained that he lacked
access to “some of his legal materials” or any federal
law until September 27, 2017, when he entered
federal custody. But he also admitted (after the
government pointed it out) that he arrived at a federal
facility—Federal Detention Center (FDC) Milan—on
August 29, 2017. He said the court should hold an
evidentiary hearing to assess the timeliness of his
filing.

5a
Simmons attached affidavits from himself and
Benjamin Foreman, the jailhouse law clerk helping
him with his post-conviction relief. In his affidavit,
Simmons said: “While at the Wayne County Jail, I
merely had access to state law, however as the result
of me being convicted in federal court state law was of
no benefit to me.” (R. 52, Reply, PageID 325.) He
mentioned nothing about his time in MDOC custody
before January 2017. He said FDC Milan (where he
arrived on August 29, 2017) only had a library
computer, with no physical library or legal assistants
to help. The lack of guidance “made it rough [for him]
to begin legal research not having ‘any idea’ where to
start.” (Id. (emphasis added).) He again emphasized
that he “did not have the opportunity and access to a
federal Law Library and assistance until September
27, 2017[.]” (Id.)
In Benjamin Foreman’s affidavit, he explained that
he had been a law clerk at prisons for years and that:
[V]ery few guys could navigate themselves
through the Law Library system without the
guidance of me or our other Law Clerk Mr.
Bennett so, I can totally understand how
Movant Simmons, Jr. waited til he arrived at
FCI-Milan to seek the aid of an experienced
Law Clerk to help him.
(Id. at 327 (emphasis added).) Foreman also explained
that the only way to obtain Section 2255 materials
while at FDC Milan was to request them from the law
library technician, but “you have to know what you
need.” (Id.) Simmons requested nothing since he
“knows nothing at all about federal law and how to
research [and] identify errors.” (Id.)

6a
And in supplemental briefing, Simmons again
asserted that during his time in state custody he “had
no access to a law library (with federal case law and
ADEPA [sic] statute of limitations period); 2255
Petition; his legal materials or the Rules Governing
2255 Proceedings[.]” (R. 60, Suppl. Br., PageID 366.)
He had “ ‘no federal law’ or ‘federal forms’ ” and no
“computer that accesses federal law cases.” (Id. At
370.) He said he only had access to state law, and no
one provided legal assistance.
The magistrate’s final report and recommendation
recommended denying the motion for timeliness. The
district
judge
adopted
the
report
and
recommendation, accepting the magistrate’s finding
that Simmons’s “allegations were broad and
generalized, and that he has not sufficiently alleged
what specific legal materials he was missing and how
the lack of those materials prejudiced his ability to
pursue his rights under section 2255.” (R. 64, Order,
PageID 419.) But the district judge noted the
difficulties in deciding this Section 2255(f)(2) issue,
especially with the lack of binding precedent. So he
issued a certificate of appealability for us to assess: (1)
“whether the lack of access to legal materials can
support relief under 2255(f)(2)” and (2) “how specific a
petitioner must be in alleging which legal materials
he lacked access to and how that impacted his ability
to pursue his rights under section 2255.” (Id. at 419–
20.)
II.
The Supreme Court has long recognized a
constitutional right of access to courts. See Lewis v.
Casey, 518 U.S. 343, 350, 116 S.Ct. 2174, 135 L.Ed.2d

7a
606 (1996); Bounds v. Smith, 430 U.S. 817, 821, 828,
97 S.Ct. 1491, 52 L.Ed.2d 72 (1977). In Bounds, the
Court held that “the fundamental constitutional right
of access to the courts requires prison authorities to
assist inmates in the preparation and filing of
meaningful legal papers by providing prisoners with
adequate law libraries or adequate assistance from
persons trained in the law.” Bounds, 430 U.S. at 828,
97 S.Ct. 1491. In Lewis, the Court clarified that
Bounds focused on the right of access to courts—not a
“freestanding right to [an adequate] law library or
legal assistance[.]” 518 U.S. at 350–51, 116 S.Ct. 2174.
What’s more, a state need not “enable the prisoner to
discover grievances, and to litigate effectively once in
court.” Id. at 354, 116 S.Ct. 2174. The constitutional
right to access courts does not impose such additional
burdens on state prisons. Id. A state need only provide
adequate tools for inmates to “attack their sentences,
directly or collaterally,” or “challenge the conditions of
their confinement.” Id. at 355, 116 S.Ct. 2174. Bounds
and Lewis’s emphasis of a right to court access
suggests that a lack of federal materials for a prisoner
to challenge his conviction or confinement or a lack of
a legal assistance program may constitute
“impediment[s] ... by governmental action in violation
of the Constitution[,]” depending on the other
circumstances. 28 U.S.C. § 2255(f)(2); see Id.
§ 2244(d)(1)(B).
The circuits that have addressed this question agree
that a lack of access to certain legal resources may
constitute an impediment under Section 2255(f)(2) or
Section 2244(d)(1)(B), the Section 2244 counterpart to
Section 2255(f)(2). In Whalem/Hunt v. Early, the
Ninth Circuit addressed impediments for Section

8a
2244(d)(1)(B). 233 F.3d 1146 (9th Cir. 2000) (en banc)
(per curiam); see Shelton v. United States, 800 F.3d
292, 294 (6th Cir. 2015) (reading
Section
2244(d)(1)(B) and Section 2255(f)(2) as “virtually
identical” (quoting Ramos-Martinez v. United States,
638 F.3d 315, 321 (1st Cir. 2011))). The court held that
there could be “circumstances consistent with [the]
petitioner’s petition and declaration under which he
would be entitled to a finding of an ‘impediment’
under § 2244(d)(1)(B).” Id. at 1148. The petitioner
claimed that the law library in his prison did not have
a copy of the Antiterrorism and Effective Death
Penalty Act (AEDPA)—which established the
relevant statute of limitations—until two years after
his judgment of conviction became final, and he knew
nothing about the AEDPA one-year statute of
limitations. Id. at 1147. The district court dismissed
the petition as time-barred, but the en banc court
reversed and remanded, finding that the petitioner’s
allegations potentially suggested an impediment. Id.
at 1147–48.
Similarly, in Egerton v. Cockrell, the Fifth Circuit
concluded that “[t]he absence of all federal materials
from a prison library (without making some
alternative arrangements to apprise prisoners of their
rights) violates the ... right ... [of] access to the
courts[,]” and “an inadequate prison law library may
constitute a state created [sic] impediment that would
toll the AEDPA’s one-year limitations period.” 334
F.3d 433, 438–39 (5th Cir. 2003). And in Estremera v.
United States, the Seventh Circuit held that a “[l]ack
of library access can, in principle, be an ‘impediment’
to the filing of a collateral attack.” 724 F.3d 773, 776
(7th Cir. 2013). But “[w]hether a prisoner has

9a
demonstrated the existence of a state-created
impediment is highly fact dependent.” Funk v. Thaler,
390 F. App’x 409, 410 (5th Cir. 2010) (per curiam). “To
hold that the absence of library access may be an
‘impediment’ in principle is not necessarily to say that
lack of access was an impediment for a given prisoner.
‘In principle’ is a vital qualifier.” Estremera, 724 F.3d
at 777.
The parties do not cite authority from this Circuit
establishing that the lack of federal materials in a
prison can constitute a constitutional violation, nor
have we, apparently, rejected that view either. For
purposes of this case, we need not define the contours
of such a right. We assume that a lack of federal
materials for a prisoner to challenge his conviction or
confinement, combined with a lack of a legal
assistance program, constituted an unconstitutional
impediment under Section 2255(f)(2).
III.
We next address what the prisoner must allege for
Section 2255(f)(2) to apply. We review de novo
whether a Section 2255 motion is time-barred. See
Wooten v. Cauley, 677 F.3d 303, 306 (6th Cir. 2012)
(finding the same in the context of a habeas petition
under 28 U.S.C. § 2241).
Typically, a prisoner must file his Section 2255
motion within one year of his conviction’s becoming
final. By its terms, however, Section 2255(f)(2)
effectively creates an exception to this rule by stating
that the one-year period can begin on a later date—
when an unconstitutional impediment to filing the
motion is removed—provided that “the movant was

10a
prevented from making a motion by such
governmental action[.]” Thus, under the statute, an
unconstitutional impediment is not enough, in and of
itself, to delay the triggering of the statute of
limitations. A movant must initially allege facts that
will establish that the impediment actually prevented
the movant from filing the motion.
That the statute requires a causal relationship
between the impediment and not filing the motion is
not controversial. We have said, in unpublished cases,
that
Section 2244(d)(1)(B),
Section 2255(f)(2)’s
counterpart, “requires a causal relationship between
the unconstitutional state action and being prevented
from filing the petition” and that the prisoner must
allege the relevant facts. Winkfield v. Bagley, 66 F.
App’x 578, 582–83 (6th Cir. 2003) (quoting Dunker v.
Bissonnette, 154 F. Supp. 2d 95, 105 (D. Mass. 2001));
see also Webb v. United States, 679 F. App’x 443, 449
(6th Cir. 2017) (finding that a prisoner did not “show
a causal relationship” between the governmental
action and the prisoner’s inability to file a Section
2255 motion on time).
Other circuits have arrived at similar conclusions.
In Krause v. Thaler, for instance, the Fifth Circuit
held that a prisoner “fail[ed] to even allege sufficient
facts to show that he was prevented from timely filing”
his habeas petition. 637 F.3d 558, 562 (5th Cir. 2011).
The prisoner alleged that the library at his facility
was inadequate and therefore an impediment to filing
under Section 2244(d)(1)(B). Id. at 560, 562. But the
Fifth Circuit concluded that the prisoner needed to
allege more than that. He did “not at any point allege
facts as to why the transfer facility’s lack of legal
materials prevented him from filing a timely habeas

11a
application.” Id. at 561. For example, he did not
“allege that he had no knowledge of AEDPA’s statute
of limitations before he was transferred to the ...
facility which he claims had an adequate library.” Id.
So to invoke Section 2255(f)(2), it is the prisoner’s
responsibility to allege (1) the existence of an
impediment to his making a motion, (2) governmental
action in violation of the Constitution or laws of the
United States that created the impediment, and (3)
that the impediment prevented the prisoner from
filing his motion. See, e.g., Krause, 637 F.3d at 560–
61. Thus, Simmons had to allege why his supposed
impediment prevented him from filing earlier. In
other words, to satisfy Section 2255(f)(2), he had to
allege a causal connection between the purportedly
inadequate resources at the state facilities and his
inability to file his motion on time.
Here, we find that Simmons failed to adequately
allege or explain how the supposedly inadequate state
law libraries or lack of legal assistance had any
bearing on his failure to file while in state custody. All
he said in his motion was that he “had no access” to
certain legal resources and that this lack of access
“prevented him from having the ability to timely
pursue and know the timeliness for filing a 2255
Motion[.]” (R. 44, Mot. to Grant Timeliness, PageID
217.) He did not allege any facts connecting the
facilities’ alleged lack of resources and his failure to
file his motion within the normal one-year limitation
period. He only provided the bare conclusory
statement that the lack of access “prevented him”
from filing earlier. But did Simmons try to go to the
state library and get materials even once? See
Estremera, 724 F.3d at 777 (asking whether the

12a
prisoner even consulted a library before filing his
petition). Did he seek out a legal assistant to help? As
the Seventh Circuit pointed out: “If he didn’t want or
need a law library during the year after his conviction
became final, its unavailability (if it was unavailable)
would not have been an impediment.” Id.
Simmons did not, strictly speaking, need to answer
any particular question in his allegations, but he
needed to allege something reflecting a plausible
causal connection. We are left with no factual
allegations that the supposed impediment prevented
him from filing. “Because [Simmons] makes no
attempt to explain how the transfer facility’s alleged
deficiencies caused him to untimely file his [motion],
his claim amounts to little more than an incognizable
complaint that his prison lacked an adequate library.”
Krause, 637 F.3d at 562 (citing Lewis, 518 U.S. at 351,
116 S.Ct. 2174). Thus, with only his mere conclusory
assertion, Simmons failed to adequately claim that
the alleged lack of resources prevented him from
filing.1
1

Simmons also filed sworn affidavits from himself and his
jailhouse law clerk, but those are even less helpful. In his
affidavit, Simmons only references Wayne County Jail, not
“MDOC custody” at all. So he failed to address whether MDOC
custody lacked the same materials. And he mentioned even less
in his affidavit about prevention than he did in his motion to
grant timeliness. What’s more, the affidavit from Foreman, the
jailhouse law clerk, does not help Simmons because Foreman
said, “I can totally understand how Movant Simmons, Jr. waited
til he arrived at FCI-Milan to seek the aid of an experienced Law
Clerk to help him.” (R. 52, Reply, PageID 327 (emphasis added).)
If anything, this comment suggests that the allegedly inadequate
state resources were not what prevented Simmons from filing
sooner—rather his decision to wait did.

13a
Requiring Simmons to allege facts that would
establish the causation between the impediment and
his failure to file is not, as he argues, inconsistent with
the general legal principle that defendants typically
bear the burden to show that a plaintiff’s claim is
outside a statute of limitations. See Griffin v. Rogers,
308 F.3d 647, 652–53 (6th Cir. 2002) (holding that
“the party asserting statute of limitations as an
affirmative defense has the burden of demonstrating
that the statute has run”). Here, Simmons himself
recognized that he had a timeliness problem by
raising the issue in his first filing before the
government could point out that he had filed his
motion late. So he started this case by rebutting a
legitimate statute of limitations defense. And this
makes sense.
It would be inconsistent with the text of Section
2255(f) and the context of (f)(1) to make the
government allege that an impediment did not exist
and did not cause an untimely filing. That’s because
the one-year period will, as a default, be triggered by
Section 2255(f)(1). See Hueso v. Barnhart, 948 F.3d
324, 335 (6th Cir. 2020) (noting that “the default start
date for the limitations period” is “one year after a
final judgment”). The “judgment of conviction”
referenced in Section 2255(f)(1) is the only event
mentioned in Section 2255(f) that will necessarily
occur in every case. Thus the government, consistent
with general statute of limitations principles, must
allege that the motion falls outside of the one-year
statute of limitations as triggered by Section
2255(f)(1) (unless the prisoner makes the argument
first, as occurred here). See Griffin, 308 F.3d at 652–
53. The possible, later triggering dates listed in

14a
Section 2255(f)(2), (f)(3), and (f)(4) may occur in
certain cases or they may not. But forcing the
government to make allegations that disprove those
dates in every case makes no sense.
In sum, we hold that a prisoner is at least required
to allege a causal connection between the purported
constitutional impediment and how the impediment
prevented him from filing on time. Simmons did not.
His conclusory assertion that the lack of access
“prevented him” from filing is not enough.2
For these reasons, we AFFIRM.

2

Because Simmons failed to adequately allege a causal
connection, an evidentiary hearing is unnecessary.

15a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
NORTHERN DIVISION
_________
RONRICO SIMMONS, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
_________
Crim. Case No.: 14-cr-20628
Civ. Case No.: 18-cv-12557
_________
Signed: May 22, 2019
_________
Attorneys and Law Firms
Janet L. Parker, U.S. Attorney’s Office, Bay City, MI,
for Respondent.
Judith S. Gracey, The Gracey Law Firm, Farmington
Hills, MI, for Petitioner.
_________
ORDER OVERRULING OBJECTIONS,
ADOPTING REPORT AND
RECOMMENDATION, DENYING MOTION TO
GRANT TIMELINESS, DENYING MOTION TO
VACATE, AND GRANTING CERTIFICATE OF
APPEALABILITY

16a
_________
THOMAS L. LUDINGTON, United States District
Judge
_________
On October 8, 2014, Petitioner was indicted on two
counts: (1) conspiracy to possess with intent to
distribute heroin in violation of 21 U.S.C. § 846; and
(2) willingly causing others to maintain a drug house
in violation of 21 U.S.C. § 856(a)(1) and (b) and 18
U.S.C. § 2. After the trial began, Petitioner pleaded
guilty to both counts pursuant to a Rule 11 plea
agreement. (R. 37.) On September 8, 2016, judgment
was entered, and Petitioner was sentenced to 190
months’ imprisonment on each count, to be served
concurrently. (R 40 at PageID.169.) Petitioner did not
file an appeal.
On August 13, 2018, Petitioner filed a Motion to
grant timeliness of his § 2255 motion and also filed
Motion to Vacate, Set Aside, or Correct Sentence
under 28 U.S.C. § 2255 (R. 44, 45.). The motions were
referred to Magistrate Judge Patricia T. Morris. ECF
No. 48No. 48. Petitioner states that after sentencing,
he was taken into the custody of the Michigan
Department of Corrections (MDOC) and served
“roughly nine months in Wayne County jail,
thereafter on September 27, 2017, he was committed
to [the] Federal Bureau of Prisons[’] custody and
arrived at FCI-Milan on September 27, 2017.” (R. 44
at PageID.214.) Petitioner contends that for roughly
13 months after the federal sentencing he was in
MDOC custody and then was placed in Wayne County
jail, however during this 13-month period [he] had no
access to federal law library; legal materials;

17a
assistance by prison authorities in the preparation
and filing of meaningful legal papers; and no access to
Rules Governing 2255 Proceedings and AEDPA
statute of limitations; thus he argues that the lack of
these critical sources certainly created an
unconstitutional impediment. (Id. at PageID.217.)
Petitioner argues that he was only obligated to file his
motion by September 27, 2018, one year from when he
arrived at FCI Milan, and that since he filed his
motion on August 13, 2018, the motion should be
considered timely. (Id.) The government responded
only to the motion to grant timeliness. (R. 50.)
On October 30, 2018, Judge Morris entered a Report
and Recommendation (R&R) suggesting that
Petitioner’s motion to grant timeliness be denied, that
the motion to vacate be denied as moot, and that the
civil case be dismissed. (R. 53.) On February 4, 2019,
this Court adopted the R&R in part, ordering that
Judge
Morris
“order
supplemental
briefing
addressing whether petitioner’s allegations entitle
him to relief under 2255(f)(2), and to issue a new
report and recommendation.” (R. 56.) This Court
clarified that “to the extent petitioner’s initial
arguments could be read to raise an equitable tolling
issue, equitable tolling is not available on these facts
as explained above. Indeed, petitioner does not
appear to dispute that conclusion. However, it
remains unclear whether, under Sixth Circuit law,
the lack of library access is the type of impediment
contemplated by 2255(f)(2). Neither the government’s
briefing nor the report and recommendation appear to
have identified any controlling authority rejecting
that notion.” (R.56 at PageID.358.)

18a
The parties submitted their supplemental briefing
in March of 2019. ECF Nos. 60, 61. On April 23, 2019,
Judge Morris issued a new report, recommending that
petitioner’s motion to grant timeliness and his motion
to vacate be denied. ECF No. 62No. 62. Judge Morris
concluded that, although there is no Sixth Circuit
authority directly on point, the relevant legal
authority suggests that Petitioner’s allegations do not
support relief under 2255(f)(2). Petitioner served his
objection on May 6, 2019. ECF No. 63No. 63.
I.
Petitioner’s objection largely recites the timeline of
the relevant events including his conviction, sentence,
incarceration in state custody, and incarceration in
federal custody. His conclusion is that, based on the
timeline of events, his petition would have been timely
but for the impediment created by the state
correctional facility, namely the lack of access to a law
library and legal materials. The discussion is not
particularly helpful to the analysis. There appears to
be no dispute that the petition would be timely if the
period of state incarceration is excluded from the
calculation of the 1-year statute of limitations period.
The question at issue is whether that period of time is
excludable under 2255(f)(2) based on Petitioner’s
allegation that he lacked access to a law library and
legal materials during that time. Judge Morris
answered that question in the negative, and
Petitioner’s objection is non-responsive to that
conclusion and the reasoning Judge Morris offered in
support of that conclusion. The Court will briefly
summarize that reasoning.

19a
As explained in the Court’s previous order adopting
the report and recommendation in part (ECF No.
56No. 56), there is no dispute that Petitioner is not
entitled to equitable tolling. Order at 6. Neither lack
of access to a law library, lack of education, nor lack
of legal knowledge were sufficient to equitably toll the
one-year limitation period. Caffey v. United States,
No. 2:07-CR-61, 2012 WL 3024741 (E.D. Tenn.
July24, 2012) (citing United States v. Stone, 68 F.
App’x 563, 565 (6th Cir. 2003)) (emphasis added).
Judge Morris noted that “at least one circuit has
concluded that § 2255(f)(2) presents a higher bar than
equitable tolling.” Rep. & Rec. at 7 (citing Ramirez v.
Yates, 571 F.3d 993, 1000 (9th Cir. 2009)).
Accordingly, Judge Morris reasoned that, if
Petitioner’s allegations are insufficient to support
relief under an equitable tolling theory, then they are
insufficient to support relief under section 2255(f)(2).
Judge Morris also noted, however, that the Seventh
Circuit held in Estremera that “ “[lack of library access
can, in principle, be an ‘impediment’ to the filing of a
collateral attack” under § 2255(f)(2).” Estremera v.
United States, 724 F.3d 773 (7th Cir. 2013). The
Estremera holding suggests that 2255(f)(2) does not
necessarily impose a higher threshold but simply a
different standard altogether, one which could be
satisfied if a petitioner demonstrates he was deprived
of access to legal materials. Similarly, Judge Morris
noted that the Fifth Circuit held in Egerton that “[t]he
State’s failure to make available to a prisoner the
AEDPA, which sets forth the procedural rules the
prisoner must follow in order to avoid having his
habeas petition summarily thrown out ... is just as
much of an impediment as if the State were to take

20a
‘affirmative steps’ to prevent the petitioner from filing
the application.” Egerton v. Cockrell, 334 F.3d 433,
436-38 (5th Cir. 2003).
Nevertheless, Judge Morris noted that courts
interpreting Egerton have limited it to its facts, noting
that whether a Petitioner was prevented from
learning of AEDPA’s statute of limitations is “highly
fact dependent.” Rep. & Rec. at 7. According to some
courts, this fact dependent inquiry requires “more
than a mere allegation that the library lacked
adequate materials or resources but instead
necessitated some factual background as to the
limitations of his access, his need for resources, and
his attempts to obtain the necessary legal resources or
help.” Wiseman v. United States, Nos. 16-cv-00700JAP/KRS, 96-cr-00072-JAP, 2018 WL 3621022, at *8
(D. N.M. July 27, 2018). Applying this standard,
Judge Morris concluded that Petitioner’s allegations
were broad and generalized, and that he has not
sufficiently alleged what specific legal materials he
was missing and how the lack of those materials
prejudiced his ability to pursue his rights under
section 2255. Id. at 7-8. Because Petitioner’s
objection is non-responsive to this analysis, his
objection will be overruled, and his motion will be
denied.
II.
Before Petitioner may appeal this Court’s
dispositive decision, a certificate of appealability must
be issued. See 28 U.S.C. § 2253(c)(1)(a); Fed. R. App.
P. 22(b). A certificate of appealability may be issued
“only if the applicant has made a substantial showing
of the denial of a constitutional right.” 28 U.S.C.

21a
§ 2253(c)(2). When a court rejects a habeas claim on
the merits, the substantial showing threshold is met
if the petitioner demonstrates that reasonable jurists
would find the district court’s assessment of the
constitutional claim debatable or wrong. See Slack v.
McDaniel, 529 U.S. 473, 484-85 (2000). “A petitioner
satisfies this standard by demonstrating that ...
jurists could conclude the issues presented are
adequate to deserve encouragement to proceed
further.” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). In applying that standard, a district court
may not conduct a full merits review, but must limit
its examination to a threshold inquiry into the
underlying merit of the petitioner’s claims. Id. at 33637. “The district court must issue or deny a certificate
of appealability when it enters a final order adverse to
the applicant.” Rules Governing § 2254 Cases, Rule
11(a), 28 U.S.C. foll. § 2254.
Here, a certificate of appealability is warranted.
There is no controlling precedent squarely addressing
the issues discussed above, including 1) whether the
lack of access to legal materials can support relief
under 2255(f)(2), and 2) how specific a petitioner must
be in alleging which legal materials he lacked access
to and how that impacted his ability to pursue his
rights under section 2255. Thus, reasonable jurists
could debate the answers to these questions.
III.
Accordingly, it is ORDERED that petitioner’s
objection, ECF No. 63No. 63, is OVERRULED.
It is further ORDERED that the report and
recommendation, ECF No. 62No. 62, is ADOPTED.

22a
It is further ORDERED that the motion to grant
timeliness, ECF No. 44No. 44, is DENIED.
It is further ORDERED that the motion to vacate
pursuant to 28 U.S.C. § 2255, ECF No. 45No. 45, is
DENIED.
It is further ORDERED that a certificate of
appealability is GRANTED.

23a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
NORTHERN DIVISION
_________
RONRICO SIMMONS, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
_________
Criminal Case No.: 14- 20628
Civil Case No.: 1:17-cv-14162
Honorable Thomas L. Ludington
Magistrate Judge Patricia T. Morris
_________
Dated: February 4, 2019
_________
ORDER ADOPTING REPORT AND
RECOMMENDATION IN PART AND
REFERRING MOTIONS TO MAGISTRATE
JUDGE PATRICIA MORRIS
_________
On October 8, 2014, Petitioner was indicted on two
counts: (1) conspiracy to possess with intent to
distribute heroin in violation of 21 U.S.C. §846; and
(2) willingly causing others to maintain a drug house
in violation of 21 U.S.C. §856(a)(1) and (b) and 18
U.S.C. §2. After the trial began, Petitioner pled guilty
to both counts pursuant to a Rule 11 plea agreement.

24a
ECF No. 37. On September 8, 2016, judgment entered
and Petitioner was sentenced to 190 months on each
count, to be served concurrently. ECF No. 40 at
PageID 169. Petitioner did not file an appeal. On
August 13, 2018, Petitioner filed the instant Motion to
grant timeliness of 2255 motion and Motion to Vacate,
Set Aside, or Correct Sentence under 28 U.S.C. § 2255
ECF No. 44, 45.) The government responded to the
Motion to grant timeliness only. ECF No. 50.
The motions were referred to Magistrate Judge
Patricia T. Morris. ECF No. 48. On October 30, 2018,
Judge Morris issued a report, recommending that the
motions be denied, as the habeas petition was
untimely. ECF No. 53. Judge Morris noted that
judgment was entered against petitioner on
September 8, 2016, and that petitioner did not file a
direct appeal. Rep. & Rec. at 2. His conviction became
final after the expiration of the 14 day appeal
deadline, on September 22, 2016. Accordingly, the
one-year period set forth in 2255(f)(1) ended on
September 22, 2017.
However, the one-year period can also run from “the
date on which the impediment to making a motion
created by governmental action in violation of the
Constitution or laws of the United States is removed,
if the movant was prevented from making a motion by
such governmental action.” 28 U.S.C. § 2255(f)(2).
Petitioner contends that, during the roughly
13 months he was held in the custody of the Michigan
Department of Corrections (MDOC) following his
conviction, he was not permitted access to a library or
to legal materials. He was not committed to federal
custody until September 27, 2017. Accordingly,
Petitioner contends the one-year limitations period

25a
began on September 27, 2017, and that his August 13,
2018 petition was therefore timely. Judge Morris
rejected this argument and concluded that
Petitioner’s lack of legal resources while in state
custody does not provide him relief from the one-year
limitation period under § 2255(f)(2) or under equitable
tolling.
I.
Pursuant to Federal Rule of Civil Procedure 72, a
party may object to and seek review of a magistrate
judge’s report and recommendation. See Fed. R. Civ.
P. 72(b)(2). Objections must be stated with specificity.
Thomas v. Arn, 474 U.S. 140, 151 (1985) (citation
omitted). If objections are made, “[t]he district judge
must determine de novo any part of the magistrate
judge’s disposition that has been properly objected to.”
Fed. R. Civ. P. 72(b)(3). De novo review requires at
least a review of the evidence before the magistrate
judge; the Court may not act solely on the basis of a
magistrate judge’s report and recommendation. See
Hill v. Duriron Co., 656 F.2d 1208, 1215 (6th Cir.
1981). After reviewing the evidence, the Court is free
to accept, reject, or modify the findings or
recommendations of the magistrate judge. See Lardie
v. Birkett, 221 F. Supp. 2d 806, 807 (E.D. Mich. 2002).
Only those objections that are specific are entitled to
a de novo review under the statute. Mira v. Marshall,
806 F.2d 636, 637 (6th Cir. 1986). “The parties have
the duty to pinpoint those portions of the magistrate’s
report that the district court must specially consider.”
Id. (internal quotation marks and citation omitted). A
general objection, or one that merely restates the
arguments previously presented, does not sufficiently

26a
identify alleged errors on the part of the magistrate
judge. See VanDiver v. Martin, 304 F. Supp. 2d 934,
937 (E.D. Mich. 2004). An “objection” that does
nothing more than disagree with a magistrate judge’s
determination, “without explaining the source of the
error,” is not considered a valid objection. Howard v.
Sec’y of Health and Human Servs., 932 F.2d 505, 509
(6th Cir. 1991). Without specific objections, “[t]he
functions of the district court are effectively
duplicated as both the magistrate and the district
court perform identical tasks. This duplication of time
and effort wastes judicial resources rather than
saving them, and runs contrary to the purposes of the
Magistrate’s Act.” Id.
II.
Petitioner raises only one objection. He objects to
Judge Morris’s conclusion that his petition is
untimely. First Petitioner takes issue with the
authority Judge Morris relied upon in reaching her
decision. Judge Morris cited Caffey, in which the
court held that neither lack of access to a law library,
lack of education, nor lack of legal knowledge were
sufficient to equitably toll the one-year limitation
period. Caffey v. United States, No. 2:07-CR-61, 2012
WL 3024741 (E.D. Tenn. July24, 2012) (citing United
States v. Stone, 68 F. App’x 563, 565 (6th Cir. 2003).
In Stone, the court determined that petitioner’s postconviction transfer from federal to state custody did
not justify equitable tolling, because “insufficient
library access, standing alone, do[es] not warrant
equitable tolling.” Stone, 68 F. App’x at 565. Judge
Morris also cited Davis, which held that petitioner’s
lack of law library access did not entitle him to
equitable tolling nor did it entitle him to relief under

27a
section 2255(f)(2).
United States v. Davis, No.
1:14CV02521, 2015 WL 500169, at *2 (N.D. Ohio Feb.
4, 2015).
Petitioner argues that all of these cases should be
rejected because “they were all decided upon the false
pretense that common-law tolling controls the
outcome of 2255(f)(2).” Indeed, petitioner underscores
a relevant distinction.
Section 2255(f)(2) and
equitable tolling are two distinct avenues for relief.
See Estremera v. United States, 724 F.3d 773, 777 (7th
Cir. 2013) (“The United States observes that Jones
. . . and Tucker . . . hold that lack of library access does
not justify equitable tolling on the facts of those cases,
but Estremera doesn’t propose common-law tolling; he
invokes § 2255(f)(2)”).
A petitioner is entitled to equitable tolling if he
shows “(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary
circumstance stood in his way and prevented timely
filing.” Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005).
Section 2255(f)(2), on the other hand, provides that
the limitation period shall run from the latest of “the
date on which the impediment to making a motion
created by governmental action in violation of the
Constitution or laws of the United States is removed,
if the movant was prevented from making a motion by
such governmental action.” (emphasis added).
2255(f)(2) is conceptually similar to equitable tolling
in that both require the petitioner to demonstrate an
impediment to his ability to seek habeas relief. Relief
under 2255(f)(2), however, is governed by a different
standard than the doctrine of equitable tolling. The
former requires government action in violation of the

28a
constitution or laws of the United States, whereas the
latter requires “extraordinary circumstances” coupled
with petitioner’s diligent efforts.
Not all
“extraordinary” impediments amount to government
action in violation of the Constitution. Moreover, not
all government acts in violation of the Constitution
are necessarily “extraordinary” impediments. Lack of
law library access, for instance, is far from an
“extraordinary” impediment, as recognized by the
above cited authority declining to grant equitable
tolling based on lack of law library access. This does
not necessarily foreclose the notion that lack of law
library access could, in some circumstances, be
considered a constitutional violation to the extent it
deprives a petitioner of his right to “meaningful access
to the courts,” as recognized in Bounds v. Smith, 430
U.S. 817, 822 (1977).
Thus, Petitioner’s argument is well taken that the
above-cited cases addressing equitable tolling are not
dispositive of the 2255(f)(2) analysis. See Estremera,
724 F.3d at 777 (noting that case law addressing law
library access in the context of equitable tolling were
not dispositive of the 2255(f)(2) inquiry).
Thus, the relevant inquiry here is whether and
under what circumstances lack of law library access
amounts to a constitutional violation under 2255(f)(2),
and whether petitioner’s allegations are sufficient to
trigger an evidentiary hearing on that issue.1 Judge
Morris cited Davis to support her conclusion on this
1

As Judge Morris noted, the government’s affidavit from the
state custodian (which states the petitioner did have library
access) is not dispositive of the issue, but rather creates a factual
question involving a credibility determination.

29a
point. In addition to addressing equitable tolling,
Davis separately held that “limited access to the law
library fails to trigger Section 2255(f)(2) because such
actions were not ‘in violation of the Constitution or
laws of the United States.’” United States v. Davis,
No. 1:14CV02521, 2015 WL 500169, at *2 (N.D. Ohio
Feb. 4, 2015). Davis is an unpublished district court
opinion, however. Davis also cited no authority to
support that statement of law. The government also
contends that “access to legal research materials” is
not “constitutionally or legally mandated.” Resp. at
3, ECF No. 50 (citing United States v. Mullikin, No.
CIV.A. 5:13-7262-JMH, 2013 WL 3107560 (E.D. Ky.
June 18, 2013)2). Mullikin analyzed equitable tolling,
however, and did not discuss whether lack of law
library access amounted to a constitutional violation
under 2255(f)(2). Id.
In sum, to the extent petitioner’s initial arguments
could be read to raise an equitable tolling issue,
equitable tolling is not available on these facts as
explained above. Indeed, petitioner does not appear
to dispute that conclusion. However, it remains
unclear whether, under Sixth Circuit law, the lack of
law library access is the type of impediment
contemplated by 2255(f)(2). Neither the government’s
briefing nor the report and recommendation appear to
have identified any controlling authority rejecting
that notion. Petitioner, for his part, has identified
authority from other circuits holding that, in some

2

Although the government’s brief reflects that Mullikin is an
opinion from the Sixth Circuit Court of Appeals, the westlaw
citation provided corresponds to an opinion of the Eastern
District of Kentucky.

30a
circumstances, lack of access to legal materials can
justify relief under 2255(f)(2). See Obj. at 4–5 (citing
Estremera, 724 F.3d at 777; Egerton v. Cockrell, 334
F.3d 433, 438 (5th Cir.2003); Whalem v. Early, 233
F.3d 1146 (9th Cir.2000) (en banc). The matter will
be referred to Judge Morris to order supplemental
briefing addressing whether petitioner’s allegations
entitle him to relief under 2255(f)(2), and to issue a
new report and recommendation.
Accordingly, it is ORDERED that the report and
recommendation, ECF No. 53, is adopted in part.
It is further ORDERED that the motions to vacate
and to grant timeliness, ECF Nos. 44, 45, are referred
to Magistrate Judge Patricia T. Morris to direct
supplemental briefing and issue a report and
recommendation.
s/Thomas L. Ludington
THOMAS L. LUDINGTON
United States District Judge
Dated: February 4, 2019

31a
APPENDIX D
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
NORTHERN DIVISION
_________
RONRICO SIMMONS, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
_________
CRIMINAL CASE NO. 14-CR-20628
CIVIL CASE NO. 18-CV-12557
_________
Attorneys and Law Firms
James L. Parker, U.S. Attorney’s Office, Bay City,
MI, for Respondent.
Judith S. Gracey, The Gracey Law Firm, Farmington
Hills, MI, for Petitioner.
_________
Signed: April 23, 2019
_________
MAGISTRATE JUDGE’S REPORT AND
RECOMMENDATION ON PETITIONER’S
MOTION TO GRANT TIMELINESS OF § 2255
MOTION AND PETITIONER’S MOTION TO
VACATE SENTENCE UNDER 28 U.S.C. § 2255
_________

32a
Patricia T. Morris, United States Magistrate Judge
_________
I.

RECOMMENDATION

For the following reasons, IT IS RECOMMENDED
that Petitioner’s Motion to Grant Timeliness of § 2255
Motion (R. 44) be DENIED, that his Motion to Vacate
Sentence (R. 45) be DENIED AS UNTIMELY, and
that the civil case be DISMISSED.
II.
A.

REPORT
Introduction

On October 8, 2014, Petitioner was indicted on two
counts: (1) conspiracy to possess with intent to
distribute heroin in violation of 21 U.S.C. § 846; and
(2) willingly causing others to maintain a drug house
in violation of 21 U.S.C. § 856(a)(1) and (b) and 18
U.S.C. § 2. After the trial began, Petitioner pleaded
guilty to both counts pursuant to a Rule 11 plea
agreement. (R. 37.) On September 8, 2016, judgment
was entered and Petitioner was sentenced to 190
months’ imprisonment on each count, to be served
concurrently. (R. 40 at PageID.169.) Petitioner did
not file an appeal.
On August 13, 2018, Petitioner filed the instant
Motion to grant timeliness of § 2255 motion and
Motion to Vacate, Set Aside, or Correct Sentence
under 28 U.S.C. § 2255 (R. 44, 45.) Petitioner states
that after sentencing, he was taken into the custody
of the Michigan Department of Corrections (MDOC)
and served “roughly nine months in Wayne County
jail, thereafter on September 27, 2017, he was
committed to [the] Federal Bureau of Prisons[’]

33a
custody and arrived at FCI-Milan on September 27,
2017.” (R. 44 at PageID.214.) Petitioner contends
that
For roughly 13 months after the federal
sentencing he was in MDOC custody and then
was placed in Wayne County jail, however
during this 13-month period [he] had no access
to federal law library; legal materials;
assistance by prison authorities in the
preparation and filing of meaningful legal
papers; and no access to Rules Governing 2255
Proceedings and AEDPA statute of limitations,
thus the lack of these critical sources certainly
created an unconstitutional impediment.
(Id. at PageID.217.)
Petitioner argues that he was only obligated to file
his motion by September 27, 2018, one year from
when he arrived at FCI Milan, and that since he filed
his motion on August 13, 2018, the motion should be
considered timely. (Id.) The government responded
only to the Motion to grant timeliness. (R. 50.) On
October 30, 2018, the undersigned entered a Report
and Recommendation (R&R) suggesting that
Petitioner’s motion to grant timeliness be denied, that
the motion to vacate be denied as moot, and that the
civil case be dismissed. (R. 53.) On February 4, 2019,
United States District Judge Thomas L. Ludington
adopted the R&R in part, ordering that the
undersigned “order supplemental briefing addressing
whether petitioner’s allegations entitle him to relief
under 2255(f)(2), and to issue a new report and
recommendation.” (R 56.) Judge Ludington clarified
that “to the extent petitioner’s initial arguments could

34a
be read to raise an equitable tolling issue, equitable
tolling is not available on these facts as explained
above. Indeed, petitioner does not appear to dispute
that conclusion.
However, it remains unclear
whether, under Sixth Circuit law, the lack of library
access is the type of impediment contemplated by
2255(f)(2). Neither the government’s briefing nor the
report and recommendation appear to have identified
any controlling authority rejecting that notion.” (R.56
at PageID.358.)
B.

Analysis and Conclusion

The Antiterrorism and Effective Death Penalty Act
of 1996 (“AEDPA”), Pub. L. No. 104-132, 110 Stat.
1214 (April 24, 1996), established a one-year statute
of limitations on § 2255 petitions, which begins to run
on the latest of four possible dates. 28 U.S.C.
§ 2255(f). It usually runs from the date on which the
judgment of conviction becomes final. 28 U.S.C.
§ 2255(f)(1). When a § 2255 petitioner does not file an
appeal, the judgment of conviction is final when the
time for filing a notice of appeal expires. SanchezCastellano v. United States, 358 F.3d 424, 428 (6th
Cir. 2004); United States v. Cottage, 307 F.3d 494, 499
(6th Cir. 2002).
According to Federal Rule of
Appellate Procedure 4(b)(1), a defendant has 14 days
from the entry of judgment to file a notice of appeal.
Gillis v. United States, 729 F.3d 641, 644 (6th Cir.
2013). Petitioner did not file a direct appeal and
judgment was entered on September 8, 2016.
Therefore, Petitioner’s judgment became final on
September 22, 2016, such that Petitioner should have
filed the motion to vacate by September 22, 2017.

35a
However, the one-year period can also run from “the
date on which the impediment to making a motion
created by governmental action in violation of the
Constitution or laws of the United States is removed,
if the movant was prevented from making a motion by
such governmental action.” 28 U.S.C. § 2255(f)(2).
Pursuant to the order of reference, the sole question
is whether petitioner’s allegations, i.e., lack of federal
legal resources while in state custody, provide him
relief from the one-year limitation period under
§ 2255(f)(2). Research has not revealed any clear
Sixth Circuit precedent addressing this issue;
nevertheless, I conclude that under the available nonbinding precedent and based on a commonsense
reading of the AEDPA, Petitioner is not entitled to
relief from the one-year limitation period based on
§ 2255(f)(2).
As noted above, Petitioner states that during his 13
months in state custody after his federal sentencing
he “had no access to federal law library; legal
materials; assistance by prison authorities in the
preparation and filing of meaningful legal papers; and
no access to Rules Governing 2255 Proceedings and
AEDPA statute of limitations, thus the lack of access
to these critical sources certainly created an
unconstitutional impediment in which qualifies under
28 U.S.C. § 2255(f)(2).”
(R.44 at PageID.217.)
Petitioner also states that the “government-created
impediment ... prevented him from having ability to
timely pursue and know the timeliness for filing a
2255 motion.” (Id.)
“Prior to the enactment of the AEDPA, that section
[§ 2255] provided that such motions could be made ‘at

36a
any time.’ ” Mickens v. United States, 148 F.3d 145,
147 (2d Cir. 1998) (quoting prior version of § 2255).
The timing of the filing was a ground for dismissal
only if “it appear[ed] that the government ha[d] been
prejudiced in its ability to respond to the motion by
delay in its filing unless the movant show[ed] that it
w[as] based on grounds of which he could not have had
knowledge by the exercise of reasonable diligence
before the circumstances prejudicial to the
government occurred.” Id. (quoting Rule 9(a) of the
Rules Governing Section 2255 Proceedings for the
United States District Courts). Congress’s goal in
adding time limitations to the state and federal
habeas provisions (§ 2254 and § 2255, respectively)
was to “further the principles of comity, finality, and
federalism.” Williams v. Taylor, 529 U.S. 420, 436
(2000). Although comity and federalism principles
apply only to state habeas petitions, certainly the goal
of finality of conviction applies with equal force to
federal habeas petitions and should influence any
decision under § 2255(f)(2).
The standard under § 2244(d)(1) for state habeas
petitions is nearly synonymous with § 2255(f)(2).
Subsection B allows the limitation period to run from
“the date on which the impediment to filing an
application created by State action in violation of the
Constitution or laws of the United States is removed,
if the applicant was prevented from filing by such
state action.” § 2244(d)(1)(B). The only real difference
between the two subsections is that § 2244(d)(1)(B)
refers to “state” action and “filing an application”
while § 2255(f)(2) refers to “government” action and
“making a motion[.]” Thus, case law interpreting

37a
§ 2244(d)(1)(B) also informs the interpretation of
§ 2255(f)(2).
In contrast with these two synonymous standards, a
petitioner is entitled to equitable tolling “only if he
shows ‘(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary
circumstance stood in his way’ and prevented timely
filing.” Holland v. Florida, 560 U.S. 631, 649 (2010)
(citation omitted). In addition, a petitioner bears the
burden of persuading the court that he or she is
entitled to equitable tolling, which should be granted
sparingly, see Griffin v. Rogers, 308 F.3d 647, 653 (6th
Cir. 2002) and Cook v. Stegall, 295 F.3d 517, 521 (6th
Cir. 2002), respectively.
Ignorance of the law,
including the one-year limitation period that has been
in effect long before a petitioner’s conviction, generally
does not excuse a late filing via equitable tolling.
Starnes v. United States, 18 F. App’x 288, 293 (6th Cir.
2001). Nor have courts found that lack of library
access warrants equitable tolling. See United States
v. Stone, 68 F. App’x 563, 565-66 (6th Cir. 2003)
(“[A]llegations regarding insufficient library access,
standing alone, do not warrant equitable tolling.”);
Munnerlyn v. United States, 2009 WL 1362387, at *45 (S.D. Ohio May 13, 2009) (where legal and other
mail remained deliverable, prison lock down that
prevented access to library did not warrant
application of equitable tolling, citing cases).
Pursuant to the instant order of reference, this
court’s task is to determine whether Petitioner’s
untimeliness should be excused under § 2255(f)(2)
rather than equitable tolling. Suffice it to say, if
§ 2255(f)(2) presents a higher bar than equitable
tolling, Petitioner faces a herculean task since many

38a
cases have held that insufficient or non-existent law
library access, standing alone, does not warrant
equitable tolling. See, e.g., Stone, 68 F. App’x at 565566; Cobas v. Burgess, 306 F.3d 441, 444 (6th Cir.
2002); Miller v. Marr, 141 F.3d 976, 978 (10th Cir.
1998).
In comparing the two standards, equitable tolling
versus § 2255(f)(2) or § 2244(d)(1)(B), at least one
circuit court has concluded that § 2255(f)(2) presents
a higher bar than equitable tolling. “Although similar
in style, [plaintiff’s] 28 U.S.C. § 2244(d)(1)(B) claim
must satisfy a far higher bar than that for equitable
tolling.” Ramirez v. Yates, 571 F.3d 993, 1000 (9th
Cir. 2009).
On the other hand, it appears that some case law
interpreting § 2255(f)(2) or its counterpart,
§ 2244(d)(1)(B) has construed these statutory “tolling”
provisions more leniently than equitable tolling. In
other words, courts have granted relief under
statutory tolling where no such relief would exist
under equitable tolling. Petitioner relies on one of
these cases, Estremera v. United States, 724 F.3d 773
(7th Cir. 2013). Estremera held that “[l]ack of library
access can, in principle, be an ‘impediment’ to the
filing of a collateral attack” under § 2255(f)(2). Id. at
776.
The Fifth Circuit has also held, in Egerton v.
Cockrell, 334 F.3d 433, 436-38 (5th Cir. 2003), that
“[t]he State’s failure to make available to a prisoner
the AEDPA, which sets forth the procedural rules the
prisoner must follow in order to avoid having his
habeas petition summarily thrown out ... is just as
much of an impediment as if the State were to take

39a
‘affirmative steps’ to prevent the petitioner from filing
the application.” The Fifth Circuit found that “[t]he
absence of all federal materials from a prison library
(without making some alternative arrangements to
apprise prisoners of their rights) violates the First
Amendment
right,
through
the
Fourteenth
Amendment, to access the courts.” Id. at 438. As
noted in United States v. Freeman, 2008 WL 2051759,
at *3 (WD. La. Apr. 4, 2008), “[s]everal courts have
read Egerton narrowly, limiting its holding to its
particular facts, i.e., a situation in which the prisoner
is prevented from learning of the applicable statute of
limitations.”
Similarly, in Whalem v. Early, 233 F.3d 1146, 1148
(9th Cir. 2000) (en banc), the Ninth Circuit concluded
that the unavailability of the AEDPA in a prison law
library may create an “impediment” for purposes of
§ 2244(d)(1)(B) but that the court’s determination
whether an impediment existed is “highly factdependent,” which is why the court in Whalem
remanded the case to the district court to conduct an
evidentiary hearing on the issue. See also Moore v.
Battaglia, 476 F.3d 504, 508 (7th Cir. 2007)
(remanding the case to the district court to determine
whether a copy of the AEDPA’s statute of limitations
was available in the prison library).
One district court applied Estremera, Whalem, and
Egerton and found that this “highly fact-dependent”
inquiry under § 2255(f)(2) required more than a mere
allegation that the library lacked adequate materials
or resources but instead necessitated some factual
background as to the limitations of his access, his need
for resources, and his attempts to obtain the necessary
legal resources or help. Wiseman v. United States,

40a
Nos. 16-cv-00700-JAP/KRS, 96-cr-00072-JAP, 2018
WL 3621022, at *8 (D. N.M. July 27, 2018).
In the instant case, Petitioner has not referenced
any specifics regarding which particular resources
were available and which were missing; instead, he
broadly alleges that he was either missing library
access altogether or that he had no access to any
federal, including AEDPA, materials based solely on
the fact that he in state custody. He has not described
any attempts that he made (or the results of those
attempts) to gain access to any of the federal materials
that he states were missing from any source, either in
book form or via computer assisted legal research.
Without the requisite allegations of his attempts, I
suggest that he is not entitled to an evidentiary
hearing, nor is he entitled to relief under § 2255(f)(2).
See also United States v. Briggs, Nos. 96–336–1,
06–cv–3142, 2014 WL 940341, at *4, n. 8 (E.D. Pa.
Mar. 7, 2014) (petitioner argued that he “lacked access
to resources concerning federal statutes and federal
rules of procedure and thus he could not learn how to
file federal habeas corpus petitions” but the court held
that “limited access to federal legal materials” did not
constitute the “type of ‘governmental action’ impeding
timely filing contemplated by § 2255(f)(2)”); McAlister
v. United States, Nos. 09-CV-854, 06-CR-142, 2010
WL 898005, at *2 (E.D. Wis. Mar. 10, 2010) (Petitioner
argued that he “lacked access to an adequate law
library prior to his transfer to federal custody” but the
court held “the fact that several of the institutions
where he was confined have ‘virtually no federal law
library’ does not create a state impediment based on
unconstitutional government action that precluded
filing.” The court noted that petitioner relied on

41a
Bounds v. Smith, 430 U.S. 817, 828 (1977), but that
“to state a Bounds claim, a petitioner must
demonstrate that the alleged shortcomings actually
hindered his efforts to pursue a claim” and that
petitioner’s
“conclusory
allegations”
were
“insufficient.”); United States v. Wampler, Nos. 1:04cr-00067-001, 1:08-cv-80020, 2008 WL 565108, at *2
(W.D. Va. Feb. 29, 2008) (Because petitioner “offers no
evidence whatsoever of any attempts he made at the
local jails to obtain access to legal materials or legal
assistance” and since “[t]he mere fact that a facility
has no law library or library clerk does not prove an
unconstitutional denial of access to court,” “the court
cannot find that [petitioner] demonstrates any
unconstitutional ‘impediment’ related to being housed
in local jails that would entitle him to have the
limitation period calculated under § 2255(f)(2)”).
In a similar vein, at least one court has required
allegations pointing to an actual injury caused by the
lack of access to adequate legal materials. In United
States v. Tharp, Nos. 5:07CR00063, 5:11CV80335,
2011 WL 2607166, at *2 (W.D. Va. June 30, 2011), the
court considered the holding in Lewis v. Casey, 518
U.S. 343, 351 (1996) (requiring an actual injury
showing for access to the courts claims based on law
library issues), and concluded that to prove that
library problems caused a violation of the right to
access the court, the petitioner “must demonstrate
that the inadequacies of the available legal materials
significantly hampered her ability to litigate a viable
legal claim.” Id. The petitioner had asserted that,
after her federal sentencing, she was taken by state
authorities to a state facility where she remained for
two years. She further stated that the state facility

42a
“did not house inmates facing federal charges and that
while she was incarcerated there, she had no access to
a ‘federal law library to address the issues she [brings]
before this court’ in her § 2255 motion.” Id. The court
then found that because the petitioner did not allege
that she ever attempted to research the federal
habeas issues, or that she asked for access to federal
legal materials but was denied, and because she did
not point to any issue raised in her habeas motion that
required research, she failed to meet the showing
required by Lewis. The court noted that her claims
were “based on facts well known to her, such as the
conditions under which she accepted the plea bargain
and the problems she and her family had with
counsel,” so she “fails to demonstrate how lack of
library materials prevented her from filing a timely
§ 2255 motion” and was not entitled to relief under
§ 2255(f)(2). Id.
In the instant case, Petitioner also failed to
delineate any attempts at research that he made and
his underlying motion also alleges claims based on
facts well-known to him, i.e., that his attorney failed
to consult with him about an appeal, failed to object to
the charges and imposition of a fine, failed to file a
motion to dismiss Counts One and Two, and failed to
investigate prior convictions. (R.45.) Thus, although
Petitioner concludes that he was injured by a lack of
federal library materials, I suggest that his situation
parallels that of the petitioner in Tharp, such that he
too is not entitled to relief under § 2255(f)(2). Tharp,
2011 WL 2607166, at *2; see also Briggs, 2014 WL
940341, at *4, n. 8; McAlister, 2010 WL 898005, at *2;
Wampler, 2008 WL 565108, at *2.

43a
In addition, as noted by another district court within
our Circuit, the fact that a petitioner is imprisoned
without access to a law library also fails to meet the
criteria of § 2255(f)(2) because such actions are not “in
violation of the Constitution or laws of the United
States.” United States v. Davis, Nos. 1:10CR021,
1:14CV02521, 2015 WL 500169, at *2 (N.D. Ohio Feb.
4, 2015). This holding is also found in cases outside
our district that have summarily held that detention
in state custody was not an impediment under
§ 2255(f)(2) that prevented petitioner from timely
filing his motion because such action is not in violation
of the Constitution or laws of the United States.
Layman v. United States, No. 4:10–cv-01015–NKL,
2011 WL 666257, at *2 (W.D. Mo. Feb. 14, 2011); see
also Arnold v. United States, Nos. 7:13–cv–03500–
GRA, 7:09–cr–00561–GRA–1, 2013 WL 6780587, at *2
(D.S.C. Dec. 19, 2013) (“Petitioner’s motion is also not
timely under § 2255(f)(2), as Petitioner has not
alleged, much less proven, that his confinement in
state custody falls into the category of ‘governmental
action in violation of the Constitution or laws of the
United States’ ”). I suggest that these cases also
support the conclusion that § 2255(f)(2) does not
provide Petitioner with any relief from the limitation
period.
Finally, I suggest that this result is consistent with
a reading of the AEDPA as a whole. “A prisoner in
custody under sentence of a court established by an
Act of Congress claiming the right to be released ...
may move the court which imposed the sentence to
vacate, set aside or correct the sentence.” § 2255(a).
Although the wording of § 2255 could lead one to
conclude that a person is “in custody” only when

44a
actually serving a federal sentence, courts have held
otherwise. Instead, “[a] prisoner is in custody for
purposes of § 2255 when he is incarcerated in either
federal or state prison, provided that a federal court
has sentenced him.” Ospina v. United States, 386 F.3d
750, 752 (6th Cir. 2004). 1 As the First Circuit
explained, since the United States Supreme Court
held “that a defendant while serving the first of two
consecutive sentences could attack the second [under
§ 2254], it does not seem to us a significant stretch to
say that he may attack a federal sentence, yet to be
served, while defendant is in custody completing a
state sentence.” Desmond v. United States Bd. of
Parole, 397 F.2d 386, 389 (1st Cir. 1968) (citing Peyton
v. Rowe, 391 U.S. 54 (1968)). The court further
recognized that the “defendant is not physically ‘in
custody under sentence of a court established by Act
of Congress’, but if custody is to be construed as single
and continuous, we may join the [other Circuit] courts
as well.” Id. “There is just as much reason to resolve
1

“Section 14 of the Judiciary Act of 1789 authorized all federal
courts, including this Court, to grant the writ of habeas corpus
when prisoners were ‘in custody, under or by colour of the
authority of the United States, or [were] committed for trial
before some court of the same.’ Congress greatly expanded the
scope of federal courts to grant the writ, ‘in addition to the
authority already conferred by law,’ in all cases where any person
may be restrained of his or her liberty in violation of the
constitution, or of any treaty or law of the United States. Before
the Act of 1867, the only instances in which a federal court could
issue the writ to produce a state prisoner were if the prisoner was
‘necessary to be brought into court to testify’ was ‘committed ...
for any act done in pursuance of a law of the United States,’ or
was ‘subjec[t] or citize[n] of a foreign State, and domiciled therein’
and held under state law.” Feiker v. Turpin, 518 U.S. 651, 65960 (1996) (internal citations omitted).

45a
the legality of resumed incarceration under an
existing sentence before such resumption occurs as to
resolve the legality of continued incarceration under a
consecutive sentence yet to commence,” and “[f]ailure
to allow such resolution would in both cases result in
the possibility that later litigation might be successful
but that ‘each day [prisoners] are incarcerated under
those convictions while their cases are in the courts
will be time that they might properly have enjoyed as
free men.’ ” Id. (quoting Peyton, 391 U.S. at 64). Thus,
the rationale behind holding that a petitioner is in
custody for purposes of § 2255 while in state custody
and before he actually serves his federal sentence was
to permit him to challenge the legality of the yet-tobe-served sentence as soon as possible, thereby
potentially avoiding even commencing an illegal term
of sentence. The same rationale supports enforcement
of the limitation period: by requiring the legality of the
sentence to be challenged sooner rather than later,
any untoward incarceration can be avoided.
More importantly, it would be inconsistent to find
that a petitioner should be considered “in custody” for
§ 2255 purposes while in state custody, thereby
encouraging petitioner to file while still in state
custody, but to then conclude that this same state
custody (and attendant lack of federal library
resources) should be considered an impediment to his
filing a petition under § 2255. If state custody were
considered an impediment to seeking recourse under
§ 2255, it would have made much more sense for
courts to have concluded that a person is not “in
custody” under § 2255 until he reaches federal custody
and actually begins serving his federal sentence. See
Parkison v. United States, Nos. EP-19-CV-26-DCG,

46a
EP-14-CR-2070-DCG-1, 2019 WL 1430003, at *3
(W.D. Tex. Mar. 29, 2019) (“But it is well settled that
serving time in state custody before beginning a
federal term of imprisonment does not impede a
movant from seeking relief under 28 U.S.C. § 2255.”);
Arvin v. United States, No. 2:12cv357–MEF, 2014 WL
1584460, at *2 (N.D. Ala. Apr. 21, 2014) (construing
§ 2255(f)(2) as not affected by the fact the petitioner is
in state custody is consistent with the principle that a
person is considered to be “in custody” for purposes of
§ 2255 when incarcerated in either state or federal
custody); Caffey v. United States, No. 2:07-CR-61,
2012 WL 3024741, at *2 (E.D. Tenn. July 24, 2012)
(“[T]he mere fact that petition was originally in state
custody was not a bar to filing and this will not save
his motion from being rendered untimely.”).
Accordingly, I suggest that Petitioner’s motion to
grant timeliness of § 2255 motion be DENIED. Since
his petition is otherwise untimely, I also suggest that
his Motion to Vacate Sentence be DENIED as
UNTIMELY.
III.

REVIEW

Rule 72(b)(2) of the Federal Rules of Civil Procedure
states that “[w]ithin 14 days after being served with a
copy of the recommended disposition, a party may
serve and file specific written objections to the
proposed findings and recommendations. A party
may respond to another party’s objections within 14
days after being served with a copy.” Fed. R Civ. P.
72(b)(2); see also 28 U.S.C. § 636(b)(1). Failure to file
specific objections constitutes a waiver of any further
right of appeal. Thomas v. Arn, 474 U.S. 140, 155;
Howard v. Sec’y of Health & Human Servs., 932 F.2d

47a
505, 508 (6th Cir. 1991); United States v. Walters,
638 F.2d 947, 950 (6th Cir. 1981). The parties are
advised that making some objections, but failing to
raise others, will not preserve all the objections a
party may have to this Report and Recommendation.
Willis v. Sec’y of Health & Human Servs., 931 F.2d
390, 401 (6th Cir. 1991); Smith v. Detroit Fed’n of
Teachers Local 231, 829 F.2d 1370, 1373 (6th Cir.
1987). According to E.D. Mich. LR 72.1(d)(2), a copy
of any objections is to be served upon this magistrate
judge.
Any objections must be labeled as “Objection No. 1,”
“Objection No. 2,” etc. Any objection must recite
precisely the provision of this Report and
Recommendation to which it pertains. Not later than
14 days after service of an objection, the opposing
party may file a concise response proportionate to the
objections in length and complexity. Fed. R. Civ. P.
72(b)(2); E.D. Mich. LR 72.1(d). The response must
specifically address each issue raised in the
objections, in the same order, and labeled as
“Response to Objection No. 1,” “Response to Objection
No. 2,” etc. If the Court determines that any
objections are without merit, it may rule without
awaiting the response.

48a
APPENDIX E
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
NORTHERN DIVISION
_________
RONRICO SIMMONS, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
_________
CRIMINAL CASE NO. 14-CR-20628
CIVIL CASE NO. 18-CV-12557
_________
DISTRICT JUDGE THOMAS L. LUDINGTON
MAGISTRATE JUDGE PATRICIA T. MORRIS
_________
Dated: October 30, 2018
_________
MAGISTRATE JUDGE’S REPORT AND
RECOMMENDATION ON PETITIONER’S
MOTION TO GRANT TIMELINESS OF 2255
MOTION AND PETITIONER’S MOTION TO
VACATE SENTENCE UNDER 28 U.S.C. § 2255
_________
Patricia T. Morris, United States Magistrate Judge
_________

49a
I.

RECOMMENDATION

For the following reasons, IT IS RECOMMENDED
that Petitioner’s Motion to Grant Timeliness of 2255
Motion (R.44) be DENIED, that his Motion to Vacate
Sentence (R.45) be DENIED as UNTIMELY, and
that the civil case be DISMISSED.
II.

REPORT
A.

Introduction

On October 8, 2014, Petitioner was indicted on two
counts: (1) conspiracy to possess with intent to
distribute heroin in violation of 21 U.S.C. §846; and
(2) willingly causing others to maintain a drug house
in violation of 21 U.S.C. §856(a)(1) and (b) and 18
U.S.C. §2. After the trial began, Petitioner pleaded
guilty to both counts pursuant to a Rule 11 plea
agreement. (R.37.) On September 8, 2016, judgment
entered and Petitioner was sentenced to 190 months
on each count, to be served concurrently. (R.40 at
PageID 169.) Petitioner did not file an appeal.
On August 13, 2018, Petitioner filed the instant
Motion to grant timeliness of 2255 motion and Motion
to Vacate, Set Aside, or Correct Sentence under 28
U.S.C. § 2255 (R.44, 45.) The government responded
to the Motion to grant timeliness only. (R.50.)
B.

Analysis and Conclusion

The Antiterrorism and Effective Death Penalty Act
of 1996 (“AEDPA”), Pub. L. No. 104-132, 110 Stat.
1214 (April 24, 1996), established a one-year statute
of limitations on 2255 petitions, which begins to run
on the latest of four possible dates. 28 U.S.C.
§ 2255(f). It usually runs from the date on which the

50a
judgment of conviction becomes final. 28 U.S.C.
§ 2255(f)(1). When a 2255 petitioner does not file an
appeal, the judgment of conviction is final when the
time for filing a notice of appeal expires. SanchezCastellano v. United States, 358 F.3d 424, 428 (6th
Cir. 2004); United States v. Cottage, 307 F.3d 494, 499
(6th Cir. 2002).
According to Federal Rule of
Appellate Procedure 4(b)(1), a defendant has fourteen
days from the entry of judgment to file a notice of
appeal. Gillis v. United States, 729 F.3d 641, 644 (6th
Cir. 2013). Petitioner did not file a direct appeal and
judgment was entered on September 8, 2016.
Therefore, Petitioner’s judgment became final on
September 22, 2016, such that Petitioner should have
filed the motion to vacate by September 22, 2017.
However, the one-year period can also run from “the
date on which the impediment to making a motion
created by governmental action in violation of the
Constitution or laws of the United States is removed,
if the movant was prevented from making a motion by
such governmental action.” 28 U.S.C. § 2255(f)(2).
Petitioner states that after sentencing he was taken
into the custody of the Michigan Department of
Corrections
(MDOC)
and
served
“roughly
nine months in Wayne County jail, thereafter on
September 27, 2017, he was committed to Federal
Bureau of Prisons custody and arrived at FCI-Milan
on September 27, 2017. (R.44 at PageID. 214.)
Petitioner contends that neither “MDOC custody” nor
the Wayne County Jail provided him any access to a
library or legal material. (Id.) Thus, Petitioner
argues that he should have filed his motion by
September 27, 2018, and that since he filed his motion

51a
on August 13, 2018, the motion should be considered
timely.
Although not argued by Petitioner, it should be
noted that even though Petitioner was in state
custody after his sentencing hearing, “[a] prisoner is
in custody for purposes of § 2255 when he is
incarcerated in either federal or state prison, provided
that a federal court has sentenced him.” Ospina v.
United States, 386 F.3d 750, 752 (6th Cir. 2004).
Now turning to whether his lack of legal resources
while in state custody provides him relief from the
one-year limitation period under § 2255(f)(2), I
conclude that it does not. In Caffey v. United States,
No. 2:07-CR-61, 2012 WL 3024741 (E.D. Tenn. July
24, 2012), the petitioner made virtually the same
argument presented here. He, too had been in state
custody and he argued that the state prison library
did not have federal legal materials, that there was no
“prison lawyer” who could help him, and that he was
not well-educated and did not know he could file a
§ 2255(f) motion nor that there was any deadline to do
so until he reached federal prison. The Court held
that neither lack of access to a law library, lack of
education, nor lack of legal knowledge were sufficient
to equitably toll the one-year limitation period under
§ 2255(f)(2). Id. at *2 (citing United States v. Stone,
68 F. App’x 563, 565 (6th Cir. 2003); Cobas v. Burgess,
306 F.3d 441, 444 (6th Cir. 2002)). In addition, as
noted by another district court within our Circuit, the
fact that a petitioner is imprisoned without access to
a law library also fails to meet the criteria of
§ 2255(f)(2) because such actions are not “in violation
of the Constitution or laws of the United States.”

52a
United States v. Davis, No. 1:14CV02521, 2015 WL
500169, at *2 (N.D. Ohio Feb. 4, 2015).1
Accordingly, I suggest that Petitioner’s motion to
grant timeliness of 2255 motion be DENIED. Since
his petition is otherwise untimely, I also suggest that
his Motion to Vacate Sentence be DENIED as
UNTIMELY.
III.

REVIEW

Rule 72(b)(2) of the Federal Rules of Civil Procedure
states that “[w]ithin 14 days after being served with a
copy of the recommended disposition, a party may
serve and file specific written objections to the
proposed findings and recommendations. A party
may respond to another party’s objections within 14
days after being served with a copy.” Fed. R. Civ. P.
72(b)(2); see also 28 U.S.C. § 636(b)(1). Failure to file
specific objections constitutes a waiver of any further
right of appeal. Thomas v. Arn, 474 U.S. 140, 155;
Howard v. Sec’y of Health & Human Servs., 932 F.2d
505, 508 (6th Cir. 1991); United States v. Walters, 638
F.2d 947, 950 (6th Cir. 1981). The parties are advised
that making some objections, but failing to raise
others, will not preserve all the objections a party may
have to this Report and Recommendation. Willis v.
Sec’y of Health & Human Servs., 931 F.2d 390, 401
(6th Cir. 1991); Smith v. Detroit Fed’n of Teachers

1

Although the government attached an affidavit by a state
custodian to prove that Petitioner’s allegation that he did not
have access to legal materials is false, the court did not consider
the affidavit because such a factual dispute would be better
determined at an evidentiary hearing that is not necessary in
this case due to the legal precedents cited herein.

53a
Local 231, 829 F.2d 1370, 1373 (6th Cir. 1987).
According to E.D. Mich. LR 72.1(d)(2), a copy of any
objections is to be served upon this magistrate judge.
Any objections must be labeled as “Objection No. 1,”
“Objection No. 2,” etc. Any objection must recite
precisely the provision of this Report and
Recommendation to which it pertains. Not later than
14 days after service of an objection, the opposing
party may file a concise response proportionate to the
objections in length and complexity. Fed. R. Civ. P.
72(b)(2); E.D. Mich. LR 72.1(d). The response must
specifically address each issue raised in the
objections, in the same order, and labeled as
“Response to Objection No. 1,” “Response to Objection
No. 2,” etc. If the Court determines that any
objections are without merit, it may rule without
awaiting the response.
Date: October 30, 2018

S/ PATRICIA T. MORRIS
Patricia T. Morris
United States Magistrate
Judge

54a
APPENDIX F
_________
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_________
RONRICO SIMMONS, JR.,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
_________
No. 19-1757
_________
Filed: January 5, 2021
_________
ORDER
_________
BEFORE: ROGERS, KETHLEDGE,
NALBANDIAN, Circuit Judges.
_________
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.

55a
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

56a
APPENDIX G
_________
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
_________
UNITED STATES OF AMERICA,
Respondent,
v.
RONRICO SIMMONS, JR.,
Movant.
_________
Case No. 1:14-cr-20628-TLL
_________
Filed: August 13, 2018
_________
MOTION TO GRANT TIMELINESS OF § 2255
Motion Under 28 U.S.C. 2255 (f) (2)
_________
COMES NOW, Ronrico Simmons, Jr., proceeding
pro se Movant, moving this Honorable Court pursuant
to 28 U.S.C. § 2255 (f) (2), respectfully requesting that
this Court GRANT legal motion herein; and deem his
2255 Motion timely as the lack of library access and
legal materials was an impediment to the filing of the
petition, thus the one-year statute of limitations
began on September 27, 2017, when he was committed
to the Bureau of Prisons, thus such 2255 Motion is
being timely filed based upon the foregoing:

57a
Statement of Facts
On August 31, 2016, this Honorable Court sentenced
Movant Simmons, Jr. to 190 months of imprisonment,
however no direct appeal was filed and Attorney
Crawford failed to consult with Mr. Simmons, Jr. even
efter he expressed a dislike about his sentence and
wanted to do smothing about it but Movant’s exlawyer Attorney Crawford never consulted with him
and he never from him again after his federal
sentencing hearing. After Movant Simmons, Jr.
federal sentencing he was taken back into the custody
of the Michigan Department of Corrections and then
he served roughly nine months in Wayne County Jail,
thereafter on September 27, 2017, he was committed
to Federal Bureau of Prisons custody and arrived at
FDC-Milan on September 27, 2017. Because he was
incarcerated in MDOC custody and then in Wayne
County Jail he lacked access to library access and
legal material an impediment in which falls under the
purview of 28 U.S.C. § 2255 (f) (2), thus Movant
Simmons, Jr. one year statute of limitations period
should began on September 27, 2017, the day he was
committed into BOP custody, thus his 2255 Motion To
Vacate should be considered timely in the case herein.
(emphasis added).
Standard of Review
As a threshold matter, 28 U.S.C. § 2255 (f), requires
that collateral attacks be timely.
To be timely, a § 2255 motion must be filed within
one year of the latest of:
(1) the date on which the judgment of conviction
becomes final;

58a
(2) the date on which the impediment to making
motion created by governmental action in violation of
the Constitution or laws of the United States is
removed, if the movant was prevented from making a
motion by such governmental action;
(3) the date on which the right asserted was
initially recognized by the Supreme Court and made
retroactively applicable to cases on collateral review;
or
(4) the date on which the facts supporting the
claim or claims presented could have been discovered
through the exercise of due diligence. 28 U.S.C. § 2255
(f). See Phillips v. United States, 734 F.3d 573, 580-81
(6th Cir. 2013).
Movant Simmons, Jr., contends that his 2255
Motion is timely pursuant to 28 U.S.C. § 2255 (f) (2),
in the case herein. (emphasis added).
Reasons To Justify To Hold That Movant’s 2255
Motion Is Timely Via 2255 (f) (2)
Movant Simmons, Jr., asserts that on August 31,
2016, he was sentenced by this Honorable Court to
190 months of imprisonment, however after his
federal sentencing he was taken into M.D.O.C.
custody; and thereafter placed in Wayne County Jail.
On September 27, 2017, Movant Simmons, Jr. was
committed to Federal Bureau of Prisons custody, see
Exhibit A (A copy of Sentencing Monitoring
Computation Data Sheet dated November 29, 2017),
thus prior to that date Movant Simmons, Jr. had no
access to a legal library; 2255 Petition; his legal
materials or the Rules Governing 2255 Proceedings,
thus consistent with Estremera v. United States, 724

59a
F.3d 773, 776-77 (7th Cir. 2013) (As to 28 U.S.C.
§ 2255 (f) (2), lack of library access can, in principle,
be an impediment to the filing of a collateral attack.
The Seventh Circuit VACATED the District Court’s
denial under § 2255 (f) (2); and remanded the case for
evidentiary hearing to determine whether his 2255
Motion To Vacate was timely via 28 U.S.C. 2255 (f)
(2)); and Egerton v. Cockrell, 334 F.3d 433, 438 (5th
Cir. 2003) (holding that the absence of the
Antiterrorism and Effective Death Penalty Act from
the prison law library constituted a state-created
impediment for purposes of the one-year limitations
period of 28 U.S.C. § 2244 (d)). (emphasis added).
“Access to the courts is clearly a constitutional right,
grounded in the First Amendment, the Article IV
Privileges and Immunities Clause, the Fifth
Amendment, and/ or the Fourteenth Amendment.”
Chappell v. Rich, 340 F.3d 1279, 1282 (11th Cir.
2003). “The fundamental constitutional right of access
to the courts requires prison authorities to assist
inmates in the preparation and filing of meaningful
legal papers by providing prisoners with adequate law
libaries or adequate assistance from persons trained
in the law.” Bounds v. Smith, 430 U.S. 817, 828, 97 S.
Ct. 1491, 1498, 52 L. Ed. 2d 72 (1977).
However, “[t]he mere inability of a prisoner to access
the law library is not, in itself, an unconstitutional
impediment.” Akins v. United States, 204 F.3d 1086,
1090 (11th Cir. 2000). Rather, “[t]he inmate must
show that this inability caused an actual harm, or in
other words, unconstitutionally prevented him from
exercising that fundamental right of access to the
courts in order to attack his sentence or to challenge
the condtions of confinement.” That is, a prisoner may

60a
demonstrate actual injury by establishing that prison
officials’ actions actually deterred his pursuit of a
“non-frivolous post-conviction claim or civil rights
action.” See Al-Amin v. Smith, 511 F.3d 1317, 1332-33
(11th Cir. 2008).
In the instant case, Movant Simmons, Jr. states that
his 2255 Motion is not timely pursuant to 28 U.S.C.
§ 2255 (f) (1). Mr. Simmons, Jr., argues firmly that the
government’s failure to provide an adequate law
library prevented him from exercising his
fundamental right of access to the courts. See Akins,
204 F.3d at 1090 (11th Cir. 2000); and Tannenbaum,
148 F.3d at 1263 (11th Cir. 1998).
Movant Simmons, Jr., contends that for roughly 13
months after his federal sentencing he was in MDOC
custody and then was placed in Wayne County Jail,
however during this 13-month period RonRico
Simmons, Jr. had no access to federal law library;
legal materials; assistance by prison authorities in the
preparation and filing of meaningful legal papers; and
no access to the Rules Governing 2255 Proceedings
and AEPDA statute of limitations, thus the lack of
access to these critical sources certainly created an
unconstitutional impediment in which qualifies under
28 U.S.C. § 2255 (f)(2), in the matter herein. See
Akins, 204 F.3d 1086, 1090 (11th Cir. 2000).
As the result of RonRico Simmons, Jr. presenting
four (4) meritorious claims to this Honorable Court
within his attcahed 2255 Motion To Vacte, thus he
demonstrates actual injury based upon the
impediment
caused
by
government-created
impediment in which prevented him from having the
ability to timely pursue and know the timeliness for

61a
filing a 2255 Motion, therefore Mr. Simmons, Jr. is
entitled to proceed via 28 U.S.C. § 2255 (f) (2); and the
one year statute of limitations period should begin
from September 27, 2017, the day he arrived into
BOP custody, see Ex. A, thus the clock should end on
September 27, 2018, therefore his 2255 Motion
attached herein is being timely submitted in the case
herein. See Estremera v. United States, 724 F.3d 773
(7th Cir. 2013) (emphasis added).
CONCLUSION
In conclusion, Movant Simmons, Jr., concludes that
this Honorable Court should hold that his 2255
Motion To Vacate is timely filed under 28 U.S.C.
§ 2255 (f) (2), or alternatively conduct a prompt
evidentiary hearing to determine whether Movant
Simmons, Jr. has met his burden to prove a
Government impediment to justify holding his 2255
Motion timely under 2255 (f) (2), in the case herein.
Respectfully Submitted,
Date: 8 / 8 / 18

/s/ RonRico Simmons
Mr. RonRico Simmons
#51225-039
FCI-Milan
P.O. Box 1000
Milan, MI. 48160-0190

62a
Certificate of Service
I, Ronrico Simmons, Jr., certify that on August, 8th,
2018, I mailed by First Class U.S. Mail the original
and two copies of my pro se Motion To Grant
Timeliness of § 2255 Motion Under 28 U.S.C. § 2255
(f) (2), to this Honorable Court at the said address
listed below herein:
Clerk of the Court
U.S. Post Office
1000 Washington Avenue
Room 304
Bay City, MI. 48708
Date: _8_ / _8_ / _18_

/s/ RonRico Simmons
Mr. RonRico Simmons,
Jr.
pro se Movant

63a
EXHIBIT A (A copy of Sentencing Monitoring
Computation Data Sheet dated November 29, 2017).

64a
MILBA 540*23 * SENTENCE MONITORING
PAGE 001
* COMPUTATION DATA
AS OF 11-29-2017
*
*

11-29-2017
09:30:37

REGNO..: 51225-039
NAME: SIMMONS, RONRICO JR
FBI NO ................... : 643240EB5
ARS1 ....................... : MIL/A-DES
UNIT ....................... : F UNIT
DETAINERS .......... : NO
DATE OF BIRTH: 03-23-1980

AGE: 37

QUARTERS ............ : F02-012U
NOTIFICATIONS: NO
HOME DETENTION ELIGIBILITY DATE: 12-102030
THE FOLLOWING SENTENCE DATA IS FOR THE
INMATE’S CURRENT COMMITMENT. THE
INMATE IS PROJECTED FOR RELEASE: 06-102031 VIA GCT REL
-----CURRENT JUDGMENT/WARRANT NO: 010----COURT OF JURISDICTION .............: MICHIGAN,
EASTERN
DISTRICT
DOCKET NUMBER ...........................: 14-CR-2062801

65a
JUDGE................................................: LUDINGTON
DATE SENTENCED/PROBATION
IMPOSED ..........................................: 08-31-2016
DATE COMMITTED..........................: 09-27-2017
HOW COMMITTED .......................... : US DISTRICT
COURT
COMMITMENT
PROBATION IMPOSED.................... NO
FELONY MISDMNR FINES COSTS
ASSESS ASSESS
NONCOMMITTED.: $200.00

$00.00

$00.00 $00.00

RESTITUTION...: PROPERTY:
NO SERVICES: NO
AMOUNT: $00.00
------------CURRENT OBLIGATION NO: 010-----------OFFENSE CODE ....... : 391
OFF/CHG: 21:846 CONSPIRACY TO POSSESS
WITH INTENT TO DISTRIBUTE AND
TO DISTRIBUTE ONE KILOGRAM OR
MORE OF HEROIN, CT 1. 21:856(A)(1)
WILLINGLY CAUSING OTHERS TO
MAINTAIN DRUG HOUSE, CT 2.
SENTENCE PROCEDURE ..................... :3559 PLRA
SENTENCE
SENTENCE IMPOSED/
TIME TO SERVE ............................... : 190 MONTHS
TERM OF SUPERVISION ......................... : 5 YEARS
DATE OF OFFENSE ........................... : 08-01-2012

66a
APPENDIX H
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
_________
Name of Movant: RonRico Simmons, Jr.
Prisoner No.: 51225-039
Case No.: 1:14-cr-20628
Place of Confinement: Federal Correctional Institute
Milan
_________
UNITED STATES OF AMERICA,
v.
RONRICO SIMMONS, JR.,
(name under which convicted)
_________
Filed: August 13, 2018
_________
MOTION UNDER 28 USC § 2255 TO VACATE,
SET ASIDE, OR CORRECT SENTENCE BY A
PERSON IN FEDERAL CUSTODY
_________
MOTION
1. Name and location of court which entered the
judgment of conviction under attack
Eastern District of Michigan in Bay City, Michigan

2. Date of judgment of conviction September 08, 2016

67a
3. Length of sentence 190 months of imprisonment

4. Nature of offense involved (all counts)
Ct. 1,
Conspiracy To Possess W/ Intent To Distribute One
Kilogram Or More Of Heroin; and Ct. 2, Willingly
Causing Others To Maintain Drug House

5. What was your plea? (Check one)
(a) Not guilty



(b) Guilty



(c) Nolo contendere



If you entered a guilty plea to one count or indictment,
and a not guilty plea to another count or indictment,
give details:

6. If you pleaded not guilty, what kind of trial did you
have? (Check one)
(a) Jury



(b) Judge only



7. Did you testify at the trial?
Yes  No 
8. Did you appeal from the judgment of conviction?
Yes  No 

68a
9. If you did appeal, answer the following:
(a) Name of court
(b) Result
(c) Date of result
10. Other than a direct appeal from the judgment of
conviction and sentence, have you previously
filed any petitions, applications, or motions with
respect to this judgment in any federal court?
Yes  No 
11. If your answer to question 10 was “yes,” give the
following information:
(a)

(1) Name of court
(2) Nature of proceeding
(3) Grounds raised
(4) Did you receive an evidentiary hearing on
your petition, application or motion?
Yes 

No 

(5) Result
(6) Date of result
(b) As to any second petition, application or motion
give the same information:
(1) Name of court
(2) Name of proceeding
(3) Grounds raised

69a
(4) Did you receive an evidentiary hearing on
your petition, application or motion?
Yes 

No 

(5) Result
(6) Date of result
(c)

Did you appeal, to an appellate federal court
having jurisdiction, the result of action taken on
any petition, application or motion?
(1) First petition

Yes  No 

(2) Second petition etc.

Yes  No 

(d) If you did not appeal from the adverse action on
any petition, application or motion, explain briefly
why you did not:

12. State concisely every ground on which you claim
that you are being held in violation of the
constitution, laws or treaties of the United States.
Summarize briefly the facts supporting each
ground. If necessary, you may attach pages
stating additional grounds and facts supporting
same.

CAUTION: If you fail to set forth all grounds in this
motion, you may be barred from presenting additional
grounds at a later date.

70a
For your information, the following is a list of the
most frequently raised grounds for relief in these
proceedings. Each statement preceded by a letter
constitutes a separate ground for possible relief. You
may raise any grounds which you have other than
those listed. However, you should raise in this motion
all available grounds (relating to this conviction) on
which you based your allegations that you are being
held in custody unlawfully.
Do not check any of these listed grounds. If you
select one or more of these grounds for relief, you must
allege facts. The motion will be returned to you if you
merely check (a) through (j) or any one of these
grounds.
(a) Conviction obtained by plea of guilty which was
unlawfully induced or not made voluntarily or
with understanding of the nature of the charge
and the consequences of the plea.
(b) Conviction obtained by use of coerced confession.
(c) Conviction obtained by use of evidence gained
pursuant to an unconstitutional search and
seizure.
(d) Conviction obtained by use of evidence obtained
pursuant to an unlawful arrest.
(e) Conviction obtained by a violation of the privilege
against self-incrimination.
(f) Conviction obtained by the unconstitutional
failure of the prosecution to disclose to the
defendant evidence favorable to the defendant.

71a
(g) Conviction obtained by a violation of the
protection against double jeopardy.
(h) Conviction obtained by action of a grand or petit
jury which was unconstitutionally selected and
impaneled.
(i) Denial of effective assistance of counsel.
(j) Denial of right of appeal.

A.

Ground one:

Movant Simmons, Jr., asserts that his counsel
provided him with ineffective assistance of counsel by
failing to consult with him about an appeal when
Simmons asked him after his federal
Supporting FACTS (state briefly without citing cases
or law):
On August 31, 2016, Movant Simmons, Jr. was
sentenced by this Court to 190 months of
imprisonment and Attorney Alan A. Crawford
represented Mr. Simmons, Jr., however directly after
his federal sentencing was imposed he asked Attorney
Crawford “what’s next” ? Attorney Crawford informed
him that he would be up to visit him to discuss where
to proceed from here, however Movant Simmons
never heard from him again. After Simmons, Jr.
repeated calls to his law office and his family “no calls”
were returned.
Therefore, Movant Simmons, Jr., argues that his exlawyer provided him with deficient performance by
failing to consult

72a
B.

Ground two:

Movant Simmons, Jr., contends that his ex-lawyer
provided him with ineffective assistance of counsel by
failing to object to misadvisement of the nature of the
charges as to Count One,
Supporting FACTS (state briefly without citing cases
or law):
On May 16, 2016, before the Honorable Thomas L.
Ludington Movant Simmons, Jr. plead guilty to Ct.
One Conspiracy and Ct. 2, Willingly Causing Others
To Maintain Drug House, however during the course
of the Rule 11 Plea Colloquy at the Court’s direction
AUSA Parker “misadvised” Movant Simmons, Jr. as
to the “essential elements” of Conspiracy and Mr.
Simmons, Jr. was not advised as to the “imposition of
a fine” as a potential direct consequence of his guilty
plea, thus counsel’s failure to object to these Rule 11
violations
constitutes
‘deficient
performance’.
Furthermore, Movant Simmons, Jr., argues
C.

Ground three:

Movant Simmons, Jr., states that his counsel provided
him ineffective assistance of counsel by failing to file
a Motion To Dismiss Count One and Two of his
Indictment for failing to state
Supporting FACTS (state briefly without citing cases
or law):
On October 08, 2014, Movant Simmons, Jr.’s TwoCount Indictment was handed down by the Grand
Jury and the Court appointed Asst. Federal Public
Defender Judith Gracey to represent Movant
Simmons, Jr., thus the Court ordered all pre-trial

73a
motions to be filed no later than October 20, 2015.
However, Movant Simmons, Jr., contends that the
Court allowed retained counsel to file Appearance and
replace Asst. Federal Public Defender Judith Gracey
on October 27, 2015. Thus, the Court

Continuation of Ground One:
sentencing “what’s next,” thus expressing an desire to
appeal; and therefore consistent with Roe v. FloresOrtega, 528 U.S. 470, 480 (2000), counsel had a duty
to consult with Simmons his failure to do violates
Movant’s Sixth Amendment Rights in the case herein.
Continuation of Ground One Supporting Facts:
with about filing an notice of appeal after Mr.
Simmons, Jr. asked his lawyer after his federal
sentencing “what’s next,” thus he expressed an desire
to appeal, therefore actual prejudice exist as the result
of absent counsel’s ‘deficient performance’ Movant
Simmons, Jr. would have instructed his ex-lawyer to
file a notice of appeal on his behalf, thus Movant
Simmons, Jr.’s Sixth Amendment Rights were
violated in the case herein.
Continuation of Ground Two:
Conspiracy and failing to apprise Mr. Simmons, Jr. as
to direct consequences of his guilty plea “imposition of
a fine” as to Ct. One, thus absent counsel’s failure to
object amounting to ‘deficient performance,’ therefore
actual prejudice exist without counsel’s ‘deficient
performance’ RonRico Simmons, Jr. would not have
plead guilty, however insisted on going to jury trial in
the case herein.

74a
Continuation of Ground Two Supporting Facts:
firmly that absent counsel’s ‘deficient performance’
Movant Simmons, Jr. swears and declare under the
penalties of perjury that he would have insisted on
going to trial jury, thus actual prejudice exist in
violation of his Sixth Amendment Rights in the case
at bar.
Continuation of Ground Three:
an offense, thus violating his Fifth Amendment Grand
Jury Clause Rights and Sixth Amendment Rights;
and furthermore absent his counsel’s ‘deficient
performance’ RonRico Simmons, Jr. would not have
plead guilty, however insisted on going to jury trial,
thus his Sixth Amendment Rights were violated in the
matter herein.
Continuation of Ground Three Supporting
Facts:
ordered that all motions due by January 4, 2016, after
Attorney Alan Crawford filed his Appearance thereto.
Movant Simmons, Jr., asserts that no pre-trial
Motion To Dismiss Indictment for failure to state an
offense was filed by his ex-lawyer, thus as the result
of Count One and Two of Mr. Simmons, Jr.’s
Indictment are fatally defective and must be
dismissed, thus Attorney Crawford failure to file pretrial Motion To Dismiss amounted to ‘deficient
performance’ establishing the first prong of Strickland
v. Washington.
Therefore, Movant Simmons, Jr., argues firmly that
absent Attorney Crawford’s ‘deficient performance’
his defective indictment would have been dismissed

75a
with or without prejudice, thus actual prejudice exist
in violation his Sixth Amendment Rights pursuant to
the U.S. Constitution.

D.

Ground four:

Movant Simmons, Jr., argues firmly that his exlawyer provided him with ineffective assistance of
counsel during the sentencing phase by failing to
investigate his prior convictions and research the law
in reference to applying § 5G1.3 (d) to impoSupporting FACTS (state briefly without citing cases
or law):
Movant Simmons, Jr., asserts that on May 28, 2015,
the U.S. Magistrate Judge Morris issued a Writ of
Habeas Corpus ad Prosequendum to produce the body
of Mr. Simmons, Jr. from MDOC custody as he was
serving time on a parole violation. It should be noted
that page 19, Para. # 74, under Sentencing. Options
the USPO Marvin J. Burns within Movant Simmons,
Jr.’s PSI Report states that his sentence should be
imposed consistent with § 5G1.3 (d).
Movant Simmons, Jr., contends that his ex-lawyer
provided him ‘deficient performance’ by failing to
investigate prior convictions and research the law in
regards to § 5G1.3 (d), thus counsel’s failure to raise
this claim at Movant’s sentencing hearing amou-

Continuation of Ground Four:
se a concurrent or partially concurrent sentence to his
undischarged term of imprisonment, thus counsel’s

76a
performance during the sentencing phase violated his
Sixth Amendment Rights of the U.S. Constitution,
therefore his 190-month sentence should be
VACATED in the case at bar.
Continuation of Ground Four Supporting
Facts:
nted to ‘deficient performance,’ thus absent such
‘deficient performance’ there is a reasonable
probability that this Court would have applied the
application of U.S.S.G. § 5G1.3 (d), imposing an
concurrent or partially concurrent sentence to
Simmons, Jr.’s undischarged term of imprisonment,
therefore there is a reasonable probability that the
sentence would have been shorter actual prejudice
exist in violation of his Sixth Amendment Rights
pursuant to the U.S. Constitution.

13. If any of the grounds listed in 12A, B, C, and D
were not previously presented, state briefly what
grounds were not so presented, and give your
reasons for not presenting them:
Movant Simmons, Jr., asserts that these claims
were not raised on direct appeal because my ex-lawyer
never consulted with me about filing a notice of
appeal, thus he raises his claim under ineffective
assistance of counsel on his 2255 Motion collateral
attack proceedings.
14. Do you have any petition or appeal now pending
in any court as to the judgment under attack?
Yes  No 

77a
15. Give the name and address, if known, of each
attorney who represented you in the following
stages of the judgment attacked herein:
(a) At preliminary hearing
Asst. Federal Public Defender Judith
Gracey; Federal Defender Office; 653 S.
Saginaw, Ste. 105; Flint, MI. 48502-1523
(b) At arraignment and plea
Attorney Alan A. Crawford; 120 N. Michigan
Avenue; Ste. 303; Saginaw, MI. 48602
(c) At trial
None
(d) At sentencing Attorney
Alan A. Crawford; 120 N. Michigan Avenue;
Ste. 303; Saginaw, MI. 48602
(e) On appeal
None
(f) In any post-conviction proceeding
None
(g) On appeal from any adverse ruling in a postconviction proceeding
None

78a
16. Were you sentenced on more than one count of an
indictment, or on more than one indictment, in
the same court and at approximately the same
time?
Yes 

No 

17. Do you have any future sentence to serve after you
complete the sentence imposed by the judgment
under attack?
Yes 

No 

(a) If so, give name and location of court which
imposed sentence to be served in the future:
(b) Give date and length of the above sentence:
(c) Have you filed, or do you contemplate filing,
any petition attacking the judgment which
imposed the sentence to be served in the
future?
Yes 

No 

Wherefore, movant prays that the Court grant him all
relief to which he may be entitled in this proceeding.
Signature of Attorney (if any)
I declare under penalty of perjury that the foregoing
is true and correct. Executed on
8 / 8 / 2018
Date
/s/ RonRico Simmons
Signature of Movant
Mr. RonRico Simmons, Jr.

79a
#51225-039
FCI-Milan
P.O. Box 1000
Milan, MI. 48160-0190

80a
Affidavit of RonRico Simmons, Jr.
I, RonRico Simmons, Jr., swear and declare under
penalties of perjury that all my sworn statements
below are true to the best of my knowledge,
information and belief.
If called to testify at a prompt Evidentiary Hearing,
I RonRico Simmons, Jr., will testify consistent with
my sworn Affidavit herein as all my sworn statements
below are true and accurate.
1.
I, was indicted by the Grand Jury on October
08, 2014, in a Two-Count Indictment for Drug
Conspiracy and Maintaining Drug Premises.
2.
On May 28, 2015, I was writed from the
Michigan Department of Corrections via Writ of
Habeas Corpus ad Prosequendum issued by U.S.
Magistrate Judge Patricia T. Morris.
3.
On May 11, 2016, the Jury Trial begun,
however I requested an Continuance as at that time
Attorney Crawford advised me to not to go through
with my Jury Trial and to accept a guilty plea.
4.
On May 16, 2016, I accepted a Rule 11 Plea
Agreement and I plead guilty to Cts. 1 and 2, thus jury
trial was cancelled.
4. On August 31, 2016, I was sentenced by this
Honorable Court to 190-months of imprisonment.
5.
This Honorable Court entered Judgment on
September 08, 2016.
6.
I, was sentenced on August 31, 2016, however
right after my federal sentencing was over, I asked my
ex-lawyer Mr. Crawford “what’s next” ? At that time

81a
Attorney Crawford informed me that he would be up
to visit me to discuss where to proceed from here,
however I never heard from him again. Even after my
repeated calls to his law office and my family calling
him “no calls” were returned. My ex-lawyer provided
me with ineffective assistance of counsel by failing to
‘consult’ with me about filing a Notice of Appeal, thus
absent Attorney Crawford’s failure to consult, I would
have insisted on him filing a Notice of Appeal on my
behalf as I expressed an interest to do so.
7.
On May 16, 2016, before the Honorable Thomas
L. Ludington, I plead guilty to Cts. 1 and 2, of my
Indictment, however during the Rule 11 Plea
Colloquy, I was misinformed altogether of the
essential elements as to Counts 1 and 2; and was not
advised to the “imposition of a fine” as a potential
direct consequence of my guilty plea, therefore my
Guilty Plea was unknowingly, unintelligently entered
and involuntary the product of ineffective assistance
of counsel for failing to object to such errors in which
constitutes ‘deficient performance’ and absent such
‘deficient performance’, I swear and declare that, I
would have went through with my Jury Trial and
never plead guilty in the case herein. Thus, my exlawyer violated my Sixth Amendment Rights.
8.
On October 08, 2014, I was indicted on a TwoCount Indictment and on October 27, 2015, Attorney
Crawford was permitted to replace Asst. Federal
Public Defender Judith Gracey and the U.S.
Magistrate Judge Morris ordered all pre-trial motions
to be submitted no later than January 4, 2016,
however even though my Indictment is “fatally
defective” as to Ct. 1 and 2, my ex-lawyer failed to file
a pre-trial Motion To Dismiss Defective Indictment,

82a
thus such failure constituted ‘deficient performance’
and absent such ‘deficient performance’, I would not
have pled guilty, however insisted on going to trial in
the case at bar.
9.
A through review of my Sentencing Transcripts
reveal that at no time did Attorney Crawford request
that this Honorable Court apply U.S.S.G. § 5G1.3 (c)
and (d) to my parole violation in which was
undischarged at the time of my federal sentencing in
fact I was writed out to face federal Indictment from
the Michigan Department of Corrections and the
pending felony charge identified at page 19, Para.
# 74, thus counsel’s failure to request application of
§ 5G1.3 (c) and (d), amounts to ‘deficient performance’
and absent such ‘deficient performance’ actual
prejudice exist as there is a reasonable probability
that my 190-month sentence would have been
between 12 months & 27 days to 27 months & 29 days
lesser, therefore establishing prejudice in violation of
my Sixth Amendment Rights of the U.S. Constitution.
10.
I, RonRico Simmons, Jr., respectfully request
that this Court conduct a prompt evidentiary hearing
as to my four colorable claims of ineffective assistance
of counsel in violation of my Sixth Amendment Rights
of the U.S. Constitution in the matter herein.
I, RonRico Simmons, Jr., declare and certify under
penalties of perjury under the laws of the United
States of America pursuant to 28 U.S.C. § 1746 (1),
that the foregoing is true and correct.
Executed on August, 8th , 2018.

83a
Date: 8 / 8 / 18

Respectfully Submitted,
/s/ RonRico Simmons
Mr. RonRico Simmons, Jr.
#51225-039
FCI-Milan
P.O. Box 1000
Milan, MI. 48160-0190

84a
MEMORANDUM OF LAW IN SUPPORT OF
GRANTING MOVANT’S 2255 MOTION:
Movant Simmons, Jr.’s 2255 Is Not Barred By
Collateral Waiver
Movant Simmons, Jr., asserts that on October 14,
2014, the U.S. Department of Justice announced a
new policy no longer enforcing previously and
previous claims of ineffective assistance of counsel on
direct appeal or collateral attack, see Exhibit A (A
copy of the DOJ’s Memorandum from Deputy U.S.
Attorney General Cole dated Oct. 14, 2014).
Therefore, Movant Simmons, Jr.’s four claims of
ineffective assistance of counsel in which presents
arguable or claims that establish prejudice, thus his
four claims of ineffective assistance of counsel in
violation of his Sixth Amendment Rights are not
barred by Movant’s collateral waiver and are,
therefore properly before this Honorable Court in the
case herein.
GROUND ONE:
Movant Simmons, Jr., asserts that his counsel
provided him with ineffective assistance of counsel by
failing to consult with him about an appeal when
Simmons asked him after his federal sentencing
“what’s next,” thus expressing an desire to appeal;
and therefore consistent with Roe v. Flores-Ortega,
528 U.S. 470, 480 (2000), counsel had a duty to consult
with Simmons his failure to do violates Movant’s
Sixth Amendment Rights in the case herein.

85a
Standard of Review
Where the defendant does not instruct counsel to file
an appeal, however, the court must ask “whether
counsel in fact consulted with the defendant about an
appeal,” which entails “advising the defendant about
the advantages and disadvantages of taking an
appeal, and making a reasonable effort to discover the
defendant’s wishes.” Roe, 528 U.S. 470, 478 (2000).
The U.S. Supreme Court held in Roe, it was held
that Strickland v. Washington, 466 U.S. 668 (1984),
provided the proper framework for evaluating a claim
that counsel was constitutionally ineffective for
failing to file a notice of appeal, as, among other
matters, (1) counsel had a constitutionally imposed
duty to consult the criminal defendant only when
there was reason to think either that (a) rational
defendant would have wanted to appeal, or (b) a
particular defendant reasonably demonstrated to
counsel that he was interested in appealing; and (2)
the defendant was required to demonstrate that there
was a reasonably probability that, but for counsel’s
deficient failure to consult with him about an appeal,
the defendant would have timely appealed.
Statement of Facts
On August 31, 2016, Movant Simmons, Jr. was
sentenced by this Honorable Court to 190 months of
imprisonment and Attorney Alan A. Crawford
represented Mr. Simmons, Jr., however directly after
his federal sentencing was imposed he asked Attorney
Crawford “what’s next” ? Attorney Crawford informed
him that he would be up to visit him to discuss where
to proceed from here, however Movant Simmons, Jr.

86a
never heard from him again. After Movant Simmons,
Jr. repeated calls to his law office and his family “no
calls” were returned.
Reasons To Justify Granting Relief As To
Ground One
The Sixth Amendment guarantees “reasonably
effective” legal assistance. See Strickland v.
Washington, 466 U.S. 668, 687-88 (1984). To show
ineffective assistance, the two-prong Strickland test
requires a defendant to show that (1) counsel’s
representation fell below an objective standard of
reasonableness, and (2) such deficient performance
prejudiced the defendant. See Roe v. Flores-Ortega,
528 U.S. 470, 476-77 (2000).
Movant Simmons, Jr., asserts the first step of
Flores-Ortega, the first Strickland prong begins with
the question whether counsel “consulted” with the
defendant regarding an appeal. See Roe, 528 U.S.
470, 478 (2000). “Consulting” is a term of art that
means “advising the defendant about the advantages
and disadvantages of taking an appeal, and making a
reasonable effort to discover the defendant’s wishes.”
See United States v. Pham, 722 F.3d 320, 324 (5th Cir.
2013).
In the instant case, Movant Simmons, Jr., contends
that his 2255 Petition and sworn Affidavit attached
herein all fully support that after Mr. Simmons, Jr.
federal sentencing proceedings on August 31, 2016, he
never heard from Attorney Alan A. Crawford again
and directly after his federal sentencing he asked his
ex-lawyer “what’s next” ?, thus he clearly had a desire
to appeal, however Attorney Crawford failed

87a
altogether to “consult” with RonRico Simmons, Jr.
after his federal sentencing proceedings, thus as the
result of Movant Simmons, Jr. expressed an desire to
appeal, therefore that triggered a duty by Attorney
Crawford to consult, see Roe, 528 U.S. 470, 480
(2000).
Thus, Movant Simmons, Jr., argues that he has
satisfied prong number one ‘deficient performance’ in
the case herein.
Movant Simmons, Jr., contends that pursuant to
Flores-Ortega, a defendant satisfies the second
Strickland prong if he shows “that there is a
reasonable probability that, but for counsel’s deficient
failure to consult with him about an appeal, he would
have timely appealed.” Roe, 528 U.S. 470, 484 (2000).
Consistent with Movant’s sworn Affidavit attached
herein, thus RonRico Simmons, Jr. swears and
declares within his sworn Affidavit that but for
Attorney Crawford’s deficient failure to consult with
him about an appeal, he would have timely appealed;
and furthermore just because he has an appellate
waiver consistent with Sixth Circuit precedents in
Campbell, thus criminal defendants with appellate
waivers still are afforded the protections guaranteed
by Roe and Ludwig, see Campbell v. United States,
686 F.3d 353 (6th Cir. 2012).
Therefore, Movant Simmons, Jr., argues firmly that
his ex-lawyer Attorney Crawford provided him with
ineffective assistance of counsel in violation of his
Sixth Amendment Rights pursuant to the U.S.
Constitution.

88a
Movant Simmons, Jr., states that he is entitled to
have his 190-month sentence VACATED, thus he
should be resentenced, so as to restore his right to
appeal, but he may only argue the 18 U.S.C. § 3553 (a)
factors at re-sentencing, and the Presentence
Investigation Report will not be re-opened for new
investigation or objections. See United States v.
Uribe, 2017 U.S. Dist. LEXIS 56406 (W.D. Ark., Apr.
5, 2017) (The United States and counsel for the
defendant agreed and stipulated as follows:
* The United States agreed to concede that

Defendant’s counsel at sentencing was
ineffective in failing to counsel the Defendant as
to his appeal rights following his sentencing,
and thus, the Defendant was denied the ability
to appeal his sentence.
* The Defendant should be re-sentenced, so as to

restore his right to appeal, but he may only
argue the 18 U.S.C. § 3553 (a) factors at resentencing, and the Presentence Investigation
Report will not be re-opened for new
investigation or objections), (emphasis added).
GROUND TWO:
Movant Simmons, Jr., contends that his ex-lawyer
provided him with ineffective assistance of counsel by
failing to object to misadvisement of the nature of the
charges as to Count One, Conspiracy and failing to
apprise Mr. Simmons, Jr. as to direct consequences of
his guilty plea ‘‘imposition of a fine” as to Ct. One, thus
absent counsel’s failure to object amounting to
‘deficient performance,’ therefore actual prejudice
exist without counsel’s ‘deficient performance’

89a
RonRico Simmons, Jr. would not have plead guilty,
however insisted on going to jury trial in the case
herein.
Standard of Review
The Hill Court found in the plea bargaining context,
a petitioner seeking to establish ineffective assistance
of counsel must demonstrate that: (1) Counsel’s advice
and performance fell below an objective standard of
reasonableness; and (2) The Petitioner must show
that there is a reasonable probability that, but for
counsel’s errors, he would not have pleaded guilty and
would have insisted on going to trial. Hill, 474 U.S.
52, 59 (1985).
Statement of Facts
On May 16, 2016, before the Honorable Thomas L.
Ludington Movant Simmons, Jr. plead guilty to Ct.
One Conspiracy and Ct. 2, Willingly Causing Others
To Maintain Drug House, however during the course
of the Rule 11 Plea Colloquy at the Court’s direction
AUSA Parker “misadvised” Movant Simmons, Jr. in
open court as to the “essential elements” of
Conspiracy and Mr. Simmons, Jr. was not advised as
to the “imposition of a fine” as a potential direct
consequence of his guilty plea, thus counsel’s failure
to object to these Rule 11 violations constitutes
‘deficient performance’. Furthermore, Movant
Simmons, Jr., argues that absent counsel’s ‘deficient
performance’ RonRico Simmons, Jr. would have
insisted on going to trial, thus actual prejudice exist
in violation of his Sixth Amendment Rights in the case
herein.

90a
Reasons To Justify Granting Relief As To
Ground Two
The Sixth Amendment guarantees “reasonably
effective” legal assistance. See Strickland v.
Washington, 466 U.S. 668, 687-88 (1984). The first
prong that must be proven to establish ineffective
assistance of counsel is:
(1) Counsel’s advice and performance fell below an
objective standard of reasonableness;
In Count 1, Simmons, Jr. was charged with the
following offense:
INDICTMENT
THE GRAND JURY CHARGES:
Count 1
21 U.S.C. § 846
From approximately 2011 to on or about August 1,
2012, in the Eastern District of Michigan, Ronrico
Simmons, Jr., defendant herein, knowingly conspired
with others both known and unknown to the grand
jury to commit an offense or offenses against the
United States contrary to 21 U.S.C. § 841 (a) (1), that
is, to possess with intent to distribute and to
distribute various quantities totaling a kilogram or
more of a mixture or substance containing heroin, a
Schedule I controlled substance, in violation of 21
U.S.C. § 846.
Movant Simmons, Jr., contends that, under the
language in Count One, Conspiracy to Possess With
Intent to Distribute and to Distribute One Kilogram
or More of Heroin of the indictment, the grand jury

91a
charged only ‘‘knowingly” conspired with others,
however failed to charge ‘‘intentionally” in which is an
essential element to sustain a conviction pursuant to
21 U.S.C. § 846, see United States v. Randolph, 794
F.3d 602, 608-09 (6th Cir. 2015) (To sustain a drug
trafficking conspiracy conviction under 21 U.S.C.
§ 846, the government must have proved (1) an
agreement to violate drug laws; (2) knowledge and
intent to join the conspiracy; and (3) participation
in the conspiracy. 21 U.S.C.S. § 841 (a) (1) makes it
unlawful for any person to knowingly or intentionally
manufacture, distribute, or dispense, or possess with
intent to manufacture, distribute or dispense, a
controlled substance.), thus the offense is not
consistent with the language of the statute and Sixth
Circuit precedents in the case herein.
Movant Simmons, Jr., asserts that, under the
language in Count Two, knowingly maintain any
place for the purpose of distributing a controlled
substance of the indictment, the grand jury charged
‘‘willfully’’ instead of “knowingly,” moreover fails to
charge “for the purpose of” in which is an essential
aspect of the third essential element to sustain a
conviction pursuant to 21 U.S.C. § 856 (a) (1), see
United States v. Russell, 595 F.3d 633, 642-43 (6th
Cir. 2010) (To convict a defendant under 21 U.S.C.
§ 856 (a) (1) for maintaining a premises for drugrelated purposes, the government must prove beyond
a reasonable doubt that he (1) knowingly, (2)
maintained any place, whether permanently or
temporarily, (3) for the purpose of distributing a
controlled substance.), thus the offense is not
consistent with the language of the statute and Sixth
Circuit precedents in the case at bar.

92a
To properly review and examine Movant Simmons,
Jr.’s Ground Two , thus he will now rely upon his Rule
11 Plea Colloquy as follows:
The Court: Ms. Parker, if you could outline the
material provisions of the Rule 11 agreement,
ma’am.
Ms. Parker: Yes, Your Honor. As the Court’s
already indicated, the defendant is offering to
tender a plea to both counts of indictment. The
elements of those offenses are, for Count One,
that two or more people agreed to possess with
intent to distribute or distribute a controlled
substance; two, the defendant knowingly joined
the agreement; and, three, the object of the
conspiracy involved drug quantities totaling 1
Kilogram or more of a mixture or substance
containing heroin.
As to Count Two the elements are that the
defendant willfully caused another to use a
residence; and two, at least one purpose for
using that residence was to store, distribute or
use a controlled substance.
There is a stipulated factual basis for the plea.
I will not go into that. I assume the Court will
do that during the plea colloquy with the
defendant.
See Change of Plea Transcripts before the Honorable
Thomas L. Ludington on May 16, 2016, at page 8, line
7-23.
Movant Simmons, Jr., argues that during the
Court’s instruction for the Government prosecutor to

93a
state the terms of the Rule 11 plea agreement in which
was the only mention of the elements of the offense
during the Change of Plea Proceedings, thus the
Court failed altogether to explain the elements and
the Government prosecutor misstated the essential
elements of both Counts of Indictment as to Count 1
and 2, and as a result, the court also failed to ascertain
that there was an adequate factual basis for a plea of
guilty to the charge. It should also be noted that the
Government’s Rule 11 Plea Agreement also
misstates the elements of the offenses of his
Indictment as to Count 1 and 2. (emphasis added).
During the plea colloquy, however, the Court
instructed the Government prosecutor to read into the
record the Rule 11 plea agreement in which entails
the Government’s recitation of the essential elements
of the offenses at Count 1 and 2, but this information
was “incorrect”. Movant Simmons, Jr., argues that
he received ineffective assistance of counsel when his
former attorney permitted him to plead guilty to
Count 1 and 2 based on this “incorrect” statement of
the charges.
During a guilty plea hearing, the court must “inform
the defendant of, and determine that the defendant
understands, . . . the nature of each charge to which
the defendant is pleading.” Fed. R. Crim. P. 11 (b) (1)
(G). Further, before entering judgment on a guilty
plea, the court must “determine that there is a factual
basis for the plea.” Fed. R. Crim. P. 11 (b) (3). Here,
the Court through Government prosecutor AUSA
Janet L. Parker did not inform Movant Simmons, Jr.
correctly of the elements of Count 1 and 2 of the
Indictment, and as a result, the court did not advise

94a
Movant Simmons, Jr. properly of the nature of those
charges. Therefore, the Court did not accurately
determine that there was a factual basis for Simmons,
Jr. to plead guilty to those charges.
In the context of a postconviction action, these facts
give rise to the question of whether Simmons, Jr.’s
counsel was ineffective in failing to point out to his
client the court’s errors. Thus, Movant Simmons, Jr.,
contends to be allowed to withdraw his guilty plea on
the basis of ineffective assistance of counsel, he must
show (1) his attorney’s performance was deficient, and
(2) he was prejudiced by his attorney’s deficient
performance, see McMullen, 86 F.3d at 137.
Deficient performance by counsel
Movant Simmons, Jr., states that his guilty plea was
not knowing, intelligent and voluntary, given his
counsel’s advice or lack of advice regarding the proper
elements of the offenses to which he was pleading
guilty.
Because it waives numerous constitutional rights, a
guilty plea must be knowing, intelliegnt, and
voluntary. See Boykin v. Alabama, 395 U.S. 238, 242
(1969). A guilty plea must represent a volutary and
intelligent choice among the various options available
to the defendant. See North Carolina v. Alford, 400
U.S. 25, 31 (1970).
A plea may be involuntary either because the
accused does not understand the nature of the
constitutional protections that he is waiving or
because he has such an incomplete understanding of
the charge that his plea cannot stand as an intelligent
admission of guilt. See Henderson v. Morgan, 426 U.S.

95a
637, 645-46 n. 13 (1976). A plea is involuntary if the
defendant did not receive “real notice of the true
nature of the charge against him.” See Smith v.
O’Grady, 312 U.S. 329, 334 (1941); and Ivy v. Caspari,
173 F.3d 1136, 1141-42 (8th Cir. 1999). See also,
Bousley v. United States, 523 U.S. 614, 618 (1998)
(plea cannot be intelligent unless defendant receives
“real notice of the true nature of the charges against
him, the first and most universally recognized
requirement of due process.”’). (emphasis added).
The Court allowed the Government prosecutor who
presented the Rule 11 plea agreement in which
obtained the essential elements, however the Court
did not correct nor did Simmons, Jr.’s counsel correct
the ‘‘incorrect” statement of the elements as to
Count 1 and 2, of his Indictment, thus Movant
Simmons, Jr.’s ex-lawyer failure to object during the
plea hearing by failing to advise Mr. Simmons, Jr.
properly of elements of the charges to which he was
pleading guilty. As a result, Movant Simmons, Jr. was
not on notice of, and did not understand, the true
nature of Count 1 and 2, with the result that he was
unable to make an intelligent and informed decision
to waive his right to trial and enter a plea of guilty to
the charges.
Furthermore, Movant Simmons, Jr., asserts that the
admissions made during the plea hearing were the
result of ineffective advice of counsel. “A guilty plea
must represent the informed, self-determined choice
of the defendant among practicable alternatives; a
guilty plea cannot be a conscious, informed, selfdetermined choice if the accused relies upon counsel
who performed ineffectively in advising him.”
Hawkman v. Parratt, 661 F.2d 1161, 1170 (8th Cir.

96a
1981) (citing United States ex rel. Healey v. Cannon,
553 F.2d 1052, 1056 (7th Cir. 1977)). (emphasis
added).
Movant Simmons, Jr., contends here Movant’s exlawyer did not review the elements of Count 1 and 2
carefully, or he would have recognized that the
Government’s Rule 11 Plea Agreement was wrong and
the Court through the Government prosecutor had
advised Mr. Simmons, Jr. incorrectly as to the
elements of the charges. As a result, Movant’s
attorney did not explain the elements of Counts 1 and
2 properly to Simmons, Jr., and Movant Simmons, Jr.
did not receive effective assistance of counsel. See Hill
v. Lockhart, 474 U.S. 52, 62, 106 S. Ct. 366, 372, 88 L.
Ed. 2d 203 (1985) (attorney’s failure to inform client
accurately as to relevant law “clearly satisfied the
first prong of the Strickland analysis . . . [and] such an
omission cannot be said to fall within “the wide range
of professionally competent assistance’ demanded by
the Sixth Amendment.”) (quoting Strickland, 466 U.S.
at 690, 104 S. Ct. at 2066).
Therefore, Movant Simmons, Jr., argues firmly that
he has satisfied the performance prong of the
Strickland test.
Actual Prejudice
Movant Simmons, Jr., states that he must now
establish prong two that he was prejudiced by his
counsel’s deficient performance. When challenging a
guilty plea on the ground of ineffective assistance of
counsel, to establish prejudice the defendant also
must show there is a reasonable probability that, but
for the errors of counsel, he would not have pled guilty

97a
and would have proceeded to trial. Hill, 474 U.S. at
59, 106 S. Ct. at 370. Here, Movant Simmons, Jr.,
must show that if his attorney (and the Court) had
explained the elements of Count 1 and 2 properly, he
would not have pled guilty to the charges, but would
have proceeded to trial.
Movant Simmons, Jr., argues firmly that actual
prejudice exist as the result had his ex-lawyer
Attorney Crawford properly advised him of the
essential elements of Counts 1 and 2, he would not
have decided to end his jury trial and accept the
Government’s Plea Agreement, thus his sworn
Affidavit swears and declares that absent his exlawyer’s ‘deficient performance’, he would have not
pleaded guilty and would have insisted on going to
trial, see Hill, 474 U.S. 52, 59 (1985). The U.S.
Supreme Court in Lee v. United States, 137 S. Ct.
1958, 198 L. Ed. 2d 476 (2017), the Court noted that
likelihood of success at trial was a strong indicator
whether a defendant would plead guilty, but also
concluded that “where [a court is] . . . asking what an
individual defendant would have done, the possibility
of even a highly improbable result may be pertinent
to the extent it would have affected his
decisionmaking.” id. at 1966-67. The Supreme Court
in Lee also explained that “[c]ourts should not upset
a plea solely because of post hoc assertions from a
defendant about how he would have pled but for his
attorney’s deficiencies[,]” and that they “should
instead look to contemporaneous evidence to
substantiate a defendant’s expressed preferences.” id.
at 1967.

98a
Therefore, Movant Simmons, Jr., argues firmly that
actual prejudice exist in the case herein because he
would not have ended his jury trial absent Attorney
Crawford’s misadvisement to do so, therefore Mr.
Simmons, Jr. has shown a “reasonable probability
that, but for [his] counsel’s errors, he would not have
pled guilty and would have insisted on going to trial.”
See Hill, 474 U.S. at 59 (1985). (emphasis added).
Thus, Movant Simmons, Jr., contends that a prompt
evidentiary hearing should be conducted to permit
him to fully develop his colorable claim raised within
Ground Two in the case herein.
GROUND THREE:
Movant Simmons, Jr., states that his counsel
provided him ineffective assistance of counsel by
failing to file a Motion To Dismiss Count One and Two
of his indictment for failing to state an offense, thus
violating his Fifth Amendment Grand Jury Clause
Rights and Sixth Amendment Rights; and
furthermore
absent
his
counsel’s
‘deficient
performance’ RonRico Simmons, Jr. would not have
plead guilty, however insisted on going to jury trial,
thus his Sixth Amendment Rights were violated in the
matter herein.
Standard of Review
The Hill Court found in the plea bargaining context,
a petitioner seeking to establish ineffective assistance
of counsel must demonstrate that: (1) Counsel’s advice
and performance fell below an objective standard of
reasonableness; and (2) The Petitioner must show
that there is a reasonable probability that, but for
counsel’s errors, he would not have pleaded guilty and

99a
would have insisted on going to trial. Hill, 474 U.S.
52, 59 (1985).
Statement of Facts
On October 08, 2014, Movant Simmons, Jr.’s twocount Indictment was handed down by the Grand
Jury and the Court appointed Asst. Federal Public
Defender Judith Gracey to represent Movant
Simmons, Jr., thus the Court ordered all pre-trial
motions to be filed no later than October 20, 2015.
However, Movant Simmons, Jr., contends that the
Court allowed retained counsel to file Apperance and
replace Asst. Federal Public Defender Judith Gracey
on October 27, 2015. Thus, the Court ordered that all
motions due by January 4, 2016, after Attorney Alan
Crawford filed his Appearance thereto.
Movant Simmons, Jr., asserts that no pre-trial
Motion To Dismiss Indictment for failure to state an
offense was filed by his ex-lawyer, thus as the result
of Count One and Two of Mr. Simmons, Jr.’s
Indictment are fatally defective and must be
dismissed, thus Attorney Crawford failure to file pretrial Motion To Dismiss amounted to ‘deficient
performance’ establishing the first prong of Hill.
Therefore, Movant Simmons, Jr., argues firmly that
absent Attorney Crawford’s ‘deficient performance’ by
failing to file Motion To Dismiss Indictment, therefore
his defective Indictment would have been dismissed
with or without prejudice, thus actual prejudice exist
in violation of his Sixth Amendment Rights pursuant
to the U.S. Constitution.

100a
Reasons To Justify Granting Relief As To
Ground Three
The Sixth Amendment guarantees “reasonably
effective” legal assistance. See Strickland v.
Washington, 466 U.S. 668, 687-88 (1984). To show
ineffective assistance, the two-prong Hill v. Lockhart
test in the plea bargaining context, thus he must
demonstrate that:
(1) Counsel’s advice and performance fell below an
objective standard of reasonableness;
Rule 7 (c) (1) of the Federal Rules of Criminal
Procedure requires that an indictment be a “plain,
concise, and definite written statement of the
essential facts constituting the offense charged.” An
indictment need only contain those facts and elements
of the alleged offense necessary to inform the accused
of the charge so that he or she may prepare a defense
in the present case. See United States v. Davis, 184
F.3d 366, 367, 371 (4th Cir. 1999), and invoke the
Double Jeopardy Clause in future prosecutions based
on the same conduct. See Valentine v. Konteh, 395
F.3d 626, 631 (6th Cir. 2005). An indictment is not
sufficient if it fails to state a material element of the
offense. See United States v. Landham, 251 F.3d
1072, 1082 (6th Cir. 2001) (indictment charging
violation of 18 U.S.C. § 875 (c) insufficient because
indictment omitted 2 or 3 essential elements of claim);
and United States v. Pickett, 353 F.3d 62, 67 (D.C.
Cir. 2004) (indictment charging violation 18 U.S.C.
§ 1001 for making false statements and
misrepresentations
regarding
matter
within
Executive’s
jurisdiction
insufficient
because
indictment omitted essential element of crime).

101a
“An indictment is sufficient if it contains the
elements of the charged crime in adequate detail to
inform the defendant of the charge and to enable him
to plead double jeopardy.” U.S. v. Awad, 551 F.3d 930,
935 (9th Cir. 2009). “[A]n indictment’s complete
failure to recite an essential element of the charged
offense is . . . a fatal flaw requiring dismissal of the
indictment.” United States v. Du Bo, 186 F.3d 1177,
1179 (9th Cir. 1999). “The test for Sufficiency of the
indictment is not whether it could have been framed
in a more satisfactory manner, but whether it
conforms to minimal constitutional standards.” Awad,
551 F.3d at 935 (9th Cir. 2009).
Movant Simmons, Jr.’s conviction should be
VACATED after he is permitted to withdraw his
guilty plea based upon ineffective assistance of
counsel because his Count 1 and 2 of the Indictment
fails to ensure that he was prosecuted only “on the
basis of the facts presented to the grand jury . . . .”
United States v. Rosi, 27 F.3d 409, 414 (9th Cir. 1994).
At common law, “the most valuable function of the
grand jury was . . . to stand between the prosecutor
and the accused, and to determine whether the charge
was founded upon credible testimony. . . .” Hale v.
Henkel, 201 U.S. 43, 59, 50 L. Ed. 652, 26 S. Ct. 370
(1906). Incorporated into the Fifth Amendment thus
requires that a defendant be convicted only on charges
considered and found by a grand jury. See United
States v. Hooker, 841 F.2d 1225, 1230 (4th Cir. 1988).
Failing to enforce this requirement would allow a
court to “guess as to what was in the minds of the
grand jury at the time they returned the
indictment . . . .” United States v. Keith, 605 F.2d 462,
464 (9th Cir. 1979) (citing Russell v. United States,

102a
369 U.S. 749, 770, 8 L. Ed. 2d 240, 82 S. Ct. 1038
(1962)). Such guessing would “deprive defendant of a
basic protection that the grand jury was designed to
secure,” by allowing a defendant to be convicted “on
the basis of facts not found by, and perhaps not even
presented to, the grand jury that indicted him.” Id.
(citing Russell, 369 U.S. at 770).
Thus, Movant Simmons, Jr., asserts that this
Honorable Court may only guess whether the grand
jury received evidence of, and actually passed on
Simmons, Jr.’s intent. This Honorable Court may
never know if the grand jury would have been wiling
to ascribe criminal intent to RonRico Simmons, Jr..
See Stirone v. United States, 361 U.S. 212, 217, 4 L.
Ed. 2d 252, 80 S. Ct. 270 (1960) (no court may “know”
what the grand jury “would have been willing to
charge”). Refusing to reverse in such a situation would
impermissibly allow conviction on a charge never
considered by the grand jury. Stirone, 361 U.S. at 219.
See also, United States v. Miller, 471 U.S. 130, 139140 (1985).
Movant Simmons, Jr., argues that his conviction
must be VACATED because his indictment lacks a
necessary allegation of criminal intent as to Count
1 and 2 of his Indictment, and as such does not
‘‘properly allege an offense against the United States.”
See United States v. Morrison, 536 F.2d 286, 289 (9th
Cir. 1976); and United States v. Carll, 105 U.S. 611,
613 (1881) (such indictment fails to charge defendant
with any crime).
Movant Simmons, Jr., contends that his Indictment
at Count 1 and 2, is fatally defective, see Exhibit B (A
copy of RonRico Simmons, Jr.’s Two-Count

103a
Indictment, see Doc. # 1, Filed 10/08/14). Mr.
Simmons, Jr., asserts that Count 1 of his Indictment
is fatally defective as the result of it omitting the
essential element in which is required to sustain an
conviction for drug trafficking conspiracy conviction
under 21 U.S.C. § 846, see United States v. Randolph,
794 F.3d 602, 608-09 (6th Cir. 2015) (To sustain a
drug trafficking conspiracy conviction under 21 U.S.C.
§ 846, the government must have proved (1) an
agreement to violate drug laws; (2) knowledge and
intent to join the conspiracy; and (3) participation
in the conspiracy. 21 U.S.C. § 841 (a) (1) makes it
unlawful for any person to knowingly or intentionally
manufacture, distribute, or dispense, or possess with
intent to manufacture, distribute or dispense, a
controlled substance.), thus Count 1, omits essential
element number 2 “intent”, thus because it lacks a
necessary allegation of criminal intent it does not
“properly allege an offense against the United States,”
see United States v. Morrison, 536 F.2d 286, 289 (9th
Cir. 1976); and Carll, 105 U.S. at 613 (1881).
(emphasis added).
Movant Simmons, asserts that his Indictment at
Count 2, is fatally defective as the result of it omitting
the essential element of “knowingly” and fails to
charge “for the purpose of”, thus these are essential
elements of Knowingly maintain any place for the
purpose of distributing a controlled substance,
therefore the Sixth Circuit has held to sustain a
conviction pursuant to 21 U.S.C. § 856 (a) (1), see
United States v. Russell, 595 F.3d 633, 642-43 (6th
Cir. 2010) (To convict a defendant under 21 U.S.C.
§ 856 (a) (1) for maintaining a premises for drugrelated purposes, the government must prove beyond

104a
a reasonable doubt that he (1) knowingly, (2)
maintained any place, whether permanently or
temporarily, (3) for the purpose of distributing a
controlled substance.), thus Count 2, omits essential
element number 1 ‘‘knowingly” and fails to charge
an essential aspect of element number 3, therefore it
lacks a necessary essential element of the charged
offense, thus a fatal flaw requiring dismissal of the
indictment as to Count Two, see United States v. Du
Bo, 186 F.3d 1177, 1179 (9th Cir. 1999). (emphasis
added).
Therefore, Movant Simmons, Jr., argues firmly that
his ex-lawyer Attorney Crawford’s representation fell
below an objective standard of reasonableness by
failing to file a Motion To Dismiss Indictment as to
Count 1 and 2, see Hill, 474 U.S. 52, 62 (1985).
Actual Prejudice
Movant Simmons, Jr., contends that he must now
establish prong two that he was prejudiced by his
counsel’s deficient performance. When challenging a
guilty plea on the ground of ineffective assistance of
counsel, to establish prejudice the defendant also
must show there is a reasonable probability that, but
for the errors of counsel, he would not have pled guilty
and would have proceeded to trial. Hill, 474 U.S. at
59, 106 S. Ct. at 370. Here, Movant Simmons, Jr.,
must show absent his ex-lawyer’s ‘deficient
performance’ he would not have pled guilty to the
charges, however insisted on proceeding to trial.
Movant Simmons, Jr., argues firmly that actual
prejudice exist as the result had his ex-lawyer
Attorney Crawford filed a pre-trial Motion To Dismiss

105a
Indictment as to Ct. 1 and 2, he would not have
decided to end his jury trial and accept the
Government’s Plea Agreement, thus his sworn
Affidavit swears and declares that absent counsel’s
‘deficient performance’, he would have not pleaded
guilty and would have insisted on going to trial, see
Hill, 474 U.S. 52, 59 (1985). Furthermore, Movant
Simmons, Jr., argues firmly that consistent with the
U.S. Supreme Court’s Ruling in Lee, therefore
because RonRico Simmons, Jr. was deprived
altogether of his Sixth Amendment Right to proceed
to trial, thus he is entitled to relief, see Lee, 137 S. Ct.
1958, 198 L. Ed. 2d 476 (2017).A prompt evidentiary
hearing should be conducted to fully develop his
colorable Ground Three claim of ineffective assistance
of counsel in the case at bar.

106a
GROUND FOUR:
Movant Simmons, Jr., argues firmly that his exlawyer provided him with ineffective assistance of
counsel during the sentencing phase by failing to
investigate his prior convictions and research the law
in reference to applying § 5G1.3 (d) to impose a
concurrent or partially concurrent sentence to his
undischarged term of imprisonment, thus counsel’s
performance during the sentencing phase violated his
Sixth Amendment Rights of the U.S. Constitution,
therefore his 190-month sentence should be
VACATED in the case at bar.
Standard of Review
The Sixth Amendment guarantees the right to
effective assistance of counsel in criminal
prosecutions. See Yarborough v. Gentry, 540 U.S. 1, 5
(2003). To obtain vacatur of a sentence, the defendant
must prove that (1) counsel’s performance “fell below
an objective standard of reasonableness,” see
Strickland, 466 U.S. 668, 687-88 (1984); and (2)
counsel’s deficient performance prejudiced the
defendant,
resulting
in
an
unreliable
or
fundamentally unfair outcome in the proceeding. See
Strickland, 466 U.S. at 687, 691-92 (1984). However,
during the sentencing phase, thus actual prejudice
exist as there is a reasonable probability absent
counsel’s ‘deficient performance’ petitioner’s sentence
would have been shorter, see Glover v. United States,
531 U.S. 198, 201, 204 (2001).
Statement of Facts
Movant Simmons, Jr., asserts that on May 28, 2015,
the U.S. Magistrate Judge Morris issued a Writ of

107a
Habeas Corpus ad Prosequendum to produce the body
of Mr. Simmons, Jr. from MDOC custody as he was
serving time on a parole violation. It should be noted
that page 19, Para. # 74, under Sentencing Options
the USPO Marvin J. Burns within Movant Simmons,
Jr.’s PSI Report states that his sentence should be
imposed consistent with § 5G1.3 (d).
Movant Simmons, Jr., contends that his ex-lawyer
provided him with ‘deficient performance’ by failing to
investigate prior convictions and research the law in
regards to § 5G1.3 (d), thus counsel’s failure to raise
this claim at Movant Simmons, Jr.’s sentencing
hearing amounted to ‘deficient performance,’ thus
absent such ‘deficient performance’ there is a
reasonable probability that this Court would have
applied the application of U.S.S.G. § 5G1.3 (d),
imposing an concurrent or partially concurrent
sentence to Simmons, Jr.’s undischarged term of
imprisonment, therefore there is a reasonable
probability that the sentence would have been shorter
actual prejudice exist in violation of his Sixth
Amendment Rights pursuant to the U.S. Constitution.
Reasons To Justify Granting Relief As To
Ground Four
The Sixth Amendment guarantees “reasonably
effective” legal assistance. See Strickland v.
Washington, 466 U.S. 668, 687-88 (1984). To show
ineffective assistance the first prong requires Movant
Simmons, Jr. to prove as follows:
(1) counsel’s representation fell below an objective
standard of reasonableness;

108a
In the instant case, Movant Simmons, Jr., asserts
that a thorough review of the Sentencing Transcripts
reveal that Movant’s ex-lawyer Attorney Crawford
never requested that the Court apply the application
of U.S.S.G. § 5G1.3 (d), to his federal sentence to run
it concurrent or partially concurrent to his
undischarged term of imprisonment in fact the
Presentence Investigation Report acknowledges that
this option was in fact available, see PSR at page 19,
Para. # 74, which states as follows: “Docket Number
10-232454-FH under paragraph 51 is pending
sentencing; therefore, pursuant to § 5G1.3 (d), any
case involving an undischarged term of imprisonment
may have the sentence for the instant offense be
imposed to run concurrently, partially concurrently,
or consecutively to the prior undischarged term of
imprisonment to achieve a reasonable punishment for
the instant offense.”
It should be noted that Mr. Simmons, Jr. was
borrowed from the Michigan Department of
Corrections by way of a Writ of Habeas Corpus ad
Prosequendum issued by U.S. Magistrate Judge
Morris on May 28, 2015, as he was serving a sentence
for parole violation caused by the federal Indictment
for the instant offense. Thus, Movant Simmons, Jr. in
fact had two state charges in which were
undischarged term of imprisonments, however
neither was brought to the attention of the Court to
request a concurrent or partially concurrent sentence
to be imposed in fact for the parole violation a
“downward departure” was warranted under U.S.S.G.
§ 5G1.3 (c), see U.S. v. Newby, 13 Fed. Appx. 324, 326
(6th Cir. 2006) (The Sixth Circuit has recognized that
a district court has authority to depart from the

109a
Guidelines under § 5G1.3 (c) to recognize the amount
of time served without running afoul of the BOP’s
exclusive authority under 18 U.S.C. § 3621 (a)).
The U.S. Probation Officer recognized that
consistent with § 5G1.3 (d), that Simmons, Jr.’s
federal sentence could be ran concurrently, partially
concurrently, or consecutively to his prior “future”
state sentence. However, the U.S. Supreme Court has
held that a district court has full discretion to order a
defendant’s federal sentence to run concurrent to an
anticipated “future” state sentence, see Setser v.
United States, 566 U.S. 231, 132 S. Ct. 1463, 182 L.
Ed. 2d 455 (2012) (“it is within a district court’s
discretion to order a defendant’s federal sentence to
run consecutively or concurrently to an anticipated
state sentence.”).
Thus, Movant Simmons, Jr., argues firmly that his
190-month
sentence
was
“substantively
unreasonable” as the result of this Honorable Court’s
failure to consider the recommendations of the
Guidelines and the pertinent policy statement
(U.S.S.G. § 5G1.3 (c) & (d)), see 18 U.S.C. § 3553 (a)
(4) & (5)(requiring consideration of recommended
sentencing range and pertinent policy statements);
U.S.S.G. § 5G1.3 (c) & (d)) (policy statement); see
United States v. Williams, 432 F.3d 621, 623-24 (6th
Cir. 2005) (noting the significance of the district
court’s reliance on pertinent policy statements). The
District Court’s must also consider 18 U.S.C. § 3584,
imposition of a concurrent or consecutive sentence.
See 18 U.S.C. § 3553 (a) (3) (requiring consideration
of the “kinds of sentences available”).

110a
Therefore, Movant Simmons, Jr., argues that his
sentence is “substantively unreasonable” and
therefore illegal. See Rita v. United States, 551 U.S.
338, 372 (2007).
Movant Simmons, Jr., argues firmly that his exlawyer provided him with ‘deficient performance’ by
failing to investigate prior and pending convictions;
research the relevant law as to U.S.S.G. § 5G1.3 (c) &
(d) and failing to request within his Sentencing
Memorandum and at his federal sentencing to a
“downward departure” under U.S.S.G. § 5G1.3 (c) as
to the parole violation based upon federal offense; and
a concurrent or partially concurrent sentence
pursuant to U.S.S.G. § 5G1.3 (d) for the pending state
case identified at PSR, page 19, Para. # 74, thus
establishing the first prong of the Strickland, 466
U.S. 668, 687 (1984).
Furthermore, Movant Simmons, Jr., argues firmly
that actual prejudice exist as there is a reasonable
probability that Movant Simmons, Jr.’s sentence
would have been lesser absent his ex-lawyer’s
‘deficient performance’, thus he has established
prejudice, see Glover v. United States, 531 U.S. 198,
148 L. Ed. 2d 604, 121 S. Ct. 696 (2001) (holding that
any reduction in sentence constitutes substantial
prejudice for purposes of Strickland analysis). In this
case Mr. Simmons, Jr. received 0 days pre-trial
detention credit and his federal sentence did not
commence on the federal sentencing date of August
31, 2016, however as the result of Movant Simmons,
Jr. being borrowed from the M.D.O.C. and then
having to serve roughly 9 months in Wayne County
Jail for the pending felony case, thus his federal
sentence did not commence until September 27, 2017.

111a
Therefore, Movant Simmons, Jr., argues that there is
a reasonable probability that absent counsel’s
‘deficient performance’ his 190-month sentence would
have been between 27 mos. & 29 days or 12 mos. & 27
days lesser, thus actual prejudice exist in violation of
his Sixth Amendment Rights pursuant to the U.S.
Constitution. See Blount v. United States, 330 F.
Supp. 2d 493 (E.D. Pa., 2004) (Defense counsel
provided Blount with ineffective assistance of counsel
by failing to seek a downward departure pursuant to
U.S.S.G. Section 5G1.3, when the federal indictment
was returned, Blount was serving a Pennsylvania
state sentence of two to five year and a Philadelphia
County sentence of eleven to twenty-three months on
unrelated charges. The Government conceded that
counsel was ineffective and agreed the proper remedy
was to re-sentence Blount.). (emphasis added).
RELIEF SOUGHT
WHEREFORE, Movant Simmons, Jr., respectfully
request that this Honorable Court permit him to
withdraw his guilty plea to cure his ineffective
assistance of counsel Sixth Amendment violation,
thus vacating his conviction as to Count One and Two,
thus relief is sought as to Grounds Two and Three;
Movant Simmons, Jr., request that his 190-month
sentence is VACATED as to cure ineffectiveness
received during the sentencing phase as to Ground
Four; and as to Ground One VACATE his 190sentence and order a limited re-sentencing to restore
his right to appeal permitting him only to argue the
18 U.S.C. § 3553 (a) factors at re-sentencing.

112a
Thus, Movant Simmons, Jr. PRAYS that any of the
relief sought is GRANTED by this Honorable Court
in the interests of JUSTICE in the matter herein.

Date: 8 / 8 / 18

Respectfully Submitted,
/s/ RonRico Simmons
Mr. RonRico Simmons, Jr.
#51225-039
FCI-Milan
P.O. Box 1000
Milan, MI. 48160-0190

113a
Certificate of Service
I, Ronrico Simmons, Jr., certify that on August, 8th,
2018, I mailed by First Class U.S. Mail the original
copy of my pro se Memorandum Of Law In Support Of
Granting Movant’s 2255 Motion and two copies to this
Honorable Court at the said address listed below
herein:
Clerk of the Court
U.S. District Court
1000 Washington Avenue
Room 304
Bay City, MI. 48708
Date: 8 / 8 / 18

Respectfully Submitted,
/s/ RonRico Simmons
Mr. RonRico Simmons, Jr.
pro se Movant

114a
EXHIBIT A (A copy of the DOJ’s Memorandum from
Deputy U.S. Attorney General Cole dated October 14,
2014).

115a
U. S. Department of Justice
Office of the Deputy Attorney General

The Deputy Attorney General
Washington, D.C. 20530
October 14, 2014

MEMORANDUM
PROSECUTORS
FROM:

FOR

ALL

FEDERAL

James M.-Cole
Deputy Attorney General

SUBJECT: Department Policy on Waivers of Claims
of Ineffective Assistance of Counsel
As we all recognize, the right to effective assistance
of counsel is a core value of our Constitution. The
Department of Justice has a strong interest in
ensuring that individuals facing criminal charges
receive effective assistance of counsel so that our
adversarial system can function fairly, efficiently, and
responsibly. Accordingly, in recent years, the
Department has made support of indigent defense a
priority. We have worked to ensure that all
jurisdictions — federal, state, and local — fulfil their
obligations under the Constitution to provide effective
assistance .of counsel, especially to those who cannot
afford an attorney.
When negotiating a plea agreement, the majority of
United States Attorney’s offices do not seek a waiver
of claims of ineffective assistance of counsel. This is

116a
true even though the federal courts have uniformly
held a defendant may generally waive ineffective
assistance claims pertaining to matters other than
entry of the plea itself, such as claims related to
sentencing. While the Department is confident that a
waiver of a claim of ineffective assistance of counsel is
both legal and ethical, in order to bring consistency to
this practice, and in support of the underlying Sixth
Amendment right, we now set forth uniform
Department of Justice policies relating to waivers of
claims of ineffective assistance of counsel.
Federal prosecutors should no longer seek in plea
agreements to have a defendant waive claims of
ineffective assistance of counsel whether those claims
are made on collateral attack or, when permitted by
circuit law, made on direct appeal. For cases in which
a defendant’s ineffective assistance claim would be
barred by a previously executed waiver, prosecutors
should decline to enforce the waiver when defense
counsel rendered ineffective assistance resulting in
prejudice or when the defendant’s ineffective
assistance claim raises a serious debatable issue that
a court should resolve.
As long as prosecutors exempt ineffective-assistance
claims from their waiver provisions, they are free to
request waivers of appeal and of post-conviction
remedies to the full extent permitted by law as a
component of plea discussions and agreements.

117a
APPENDIX I
_________
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
_________
RONRICO SIMMONS, JR.,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.
_________
Case No. 1:14-cr-20628-TLL-PTM
_________
Filed: March 5, 2019
_________
SUPPLEMENTAL BRIEFING
_________
COMES NOW, Ronrico Simmons, Jr., proceeding
pro se Movant, moving this Honorable Court pursuant
to 28 U.S.C. § 636, respectfully requesting that this
Court issue Report and Recommendation to conduct a
prompt Evidentiary Hearing or to deem Simmons,
Jr.’s 2255 Motion timely via 2255 (f) (2), thus such
should be granted based upon the foregoing:
Statement of Facts
On August 23, 2018, Movant Simmons, Jr.’s pro se
Motion To Vacate 2255 was filed, see Doc. # 47; and
on August 30, 2018, U.S. Magistrate Judge Patricia T.
Morris ordered the Government to file a Response

118a
Brief as to Doc. # 44 and # 45, thus also holding any
Reply Brief is due in no later than October 4, 2018, by
Movnat Simmons, Jr.. On September 20, 2018, the
Government filed their Response Brief, see Doc. # 50
and # 51, however failed altogether to fully comply
with the Court’s Order by not addressing 2255 Motion
and Memorandum of Law, see Doc. # 45. In the
beginning of October of 2018, Movant Simmons, Jr.
filed his pro se Reply Brief, however on Tuesday,
October 30, 2018, U.S. Magistrate Judge Patricia T.
Morris issued a Report And Recommendation to deny
Movant’s Motion to Grant Timeliness Of § 2255
Motion Under 28 U.S.C. § 2255 (f) (2); and that his
2255 Motion be denied as untimely. Movant Simmons,
Jr. submitted his R. & R. Objections in mid-November
of 2018; thereafter on February 04, 2019, the
Honorable Thomas L. Ludington issued an Order
Adopting Report And Recommendation In Part And
Referring Motions To Magistrate Judge Patricia
Morris to direct Supplemental Briefing, see Doc. # 56.
On February 5, 2019, the U.S. Magistrate Judge
Morris issued an Order Setting Briefing Schedule for
the parties to file Supplemental Briefing on or before
February 26, 2019, thus Movant Simmons, Jr. now
files his Supplemental Brief with this Honorable
Court in the matter herein.
Movant Simmons, Jr., respectfully request that this
Magistrate
Judge
issue
a
Report
and
Recommendation to the District Court to conduct a
prompt Evidentiary Hearing or to deem his 2255
Motion to be timely via 2255 (f) (2), in the matter
herein. (emphasis added).

119a
Movant Simmons, Jr.’s 2255 Motion Is Timely
Via § 2255 (f) (2)
As a threshold matter, 28 U.S.C. § 2255 (f), requires
that collateral attacks be timely.
To be timely, a § 2255 motion must be filed within
one year of the latest of:
(1)
the date on which the judgment of conviction
becomes final;
(2)
the date on which the impediment to making
motion created by governmental action in violation of
the Constitution or laws of the United States is
removed, if the movant was prevented from making a
motion by such governmental action;
(3)
the date on which the right asserted was
initially recognized by the Supreme Court and made
retroactively applicable to cases on collateral review;
or
(4)
the date on which the facts supporting the
claim or claims presented could have been discovered
through the exercise of due diligence. 28 U.S.C. § 2255
(f). See Phillips v. United States, 734 F.3d 573, 580-81
(6th Cir. 2013).
Movant Simmons, Jr., contends that his 2255
Motion is timely pursuant to 28 U.S.C. § 2255 (f) (2),
in the case herein. (emphasis added).
Movant Simmons, Jr., asserts that on August 31,
2016, he was sentenced by this Honorable Court to
190 months of imprisonment, however after his
federal sentencing he was taken into M.D.O.C.
custody; and thereafter placed in Wayne County Jail.

120a
On September 27, 2017, Movant Simmons, Jr. was
committed to the Federal Bureau of Prisons custody,
see Exhibit A (A copy of Sentencing Monitoring
Computation Data Sheet dated November 29, 2017),
thus prior to that date Mr. Simmons, Jr. had no
access to a law library (with federal case law and
ADEPA statute of limitations period); 2255 Petition;
his legal materials or the Rules Governing 2255
Proceedings, thus Movant Simmons, Jr., argues
firmly that these obstacles were an impediment to the
filing of his 2255 collateral attack; and an prompt
evidentiary hearing is warranted to fully develop that
his 2255 Motion is timely via 2255 (f) (2), see
Estremera v. United States, 724 F.3d 773, 776-77 (7th
Cir. 2013) (As to 28 U.S.C. § 2255 (f) (2), lack of library
access can, in principle, be an impediment to the filing
of a collateral attack. The Seventh Circuit VACATED
the District Court’s denial under § 2255 (f) (2); and
remanded the case for an evidentiary hearing to
determine whether his 2255 Motion To Vacate was
timely via 28 U.S.C. § 2255 (f) (2)). (emphasis added).
“Access to the courts is clearly a constitutional right,
grounded in the First Amendment, the Article IV
Privileges and Immunities Clause, the Fifth
Amendment, and/ or the Fourteenth Amendment.”
Chappell v. Rich, 340 F.3d 1279, 1282 (11th Cir.
2003). “The fundamental constitutional right of access
to the courts requires prison authorities to assist
inmates in the preparation and filing of meaningful
legal papers by providing prisoners with adequate law
libraries or adequate assistance from persons trained
in the law.” Bounds v. Smith, 430 U.S. 817, 828, 97 S.
Ct. 1491, 1498, 52 L. Ed. 2d 72 (1977).

121a
However, “[t]he mere inability of a prisoner to access
the law library is not, in itself, an unconstitutional
impediment.” Akins v. United States, 204 F.3d 1086,
1090 (11th Cir. 2000). Rather, “[t]he inmate must
show that this inability caused an actual harm, or in
other words, unconstitutionally prevented him from
exercising that fundamental right of access to the
courts in order to attack his sentence or to challenge
the conditions of confinement.” That is, a prisoner
may demonstrate actual injury by establishing that
prison officials’ actions actually deterred his pursuit
of a “non-frivolous post-conviction claim or civil rights
action.” See Al-Amin v. Smith, 511 F.3d 1317, 1332-33
(11th Cir. 2008).
In the instant case, Movant Simmons, Jr., asserts
that he was in M.D.O.C. custody at the time he was
indicted, thus he borrowed from the M.D.O.C. on May
28, 2015, so after his federal sentencing he was
rightfully returned to M.D.O.C. custody, however
after being paroled from the M.D.O.C. after returning
there after his federal sentencing hearing but instead
of returning to federal custody to began service of
Simmons, Jr.’s 190-months of imprisonment he was
taken into custody by the Wayne County Sheriff’s
Office to serve 1 year in Wayne County Jail. Mr.
Simmons, Jr.’s 190-month federal sentence means a
continuous sentence, unless interrupted by. . . some
fault of the prisoner, and he cannot be required to
serve it in installments. See Weekes v. Fleming, 301
F.3d 1175, 1179 (10th Cir. 2002). (emphasis added).
The U.S. Marshal’s Service should have taken custody
of Movant’s person after he was paroled out from
M.D.O.C. custody to began service of his 190-month
federal sentence, however there failure to do so

122a
created an impediment which caused Mr. Simmons,
Jr. to be held in Wayne County Jail for 1 additional
year merely having accessing to state law while
being housed at Wayne County Jail having no access
to a federal law library, his legal materials, ADEPA
statute of limitations, Rules Governing 2255
Proceedings, and the aid of legal assistance in which
is available at every federal institution in the country
and where Mr. Simmons, Jr. is currently housed at
FCI-Milan in Milan, Michigan. (emphasis added).
Movant Simmons, Jr., attaches the Sworn Affidavit
attached to his Reply Brief of Ronrico Simmons, Jr.
and FCI-Milan Law Clerk Benjamin P. Foreman, see
Exhibit B (A copy of Ronrico Simmons, Jr.; and
Affidavit of Benjamin P. Foreman), thus these
Affidavits must be taken as true, see Conley v.
Gibson, 355 U.S. 41, 45-46 (1957). Moreover, Movant
Simmons, Jr., asserts that the Government presented
as Exhibit C, the declaration of Wayne County Jail
Sergeant Edith n once this impediment was
“removed” by restoration of access. The United States
offers two responses: first, that lack of library access
never supports a reset of the time under § 2255 (f) (2);
second, that Estremera’s prison offered electronic
access to persons in the special management unit, so
there was no obstacle. Unfortunately, the record does
not demonstrate what sort of electronic access was
available and whether it was enough for any
particular prisoner. Estremera is literate in English,
but we don’t know whether he would be competent to
use Westlaw or Lexis without assistance. Librarians
and experienced prisoners help inmates use physical
law libraries; this record does not tell us whether electronic access was an adequate substitute. So the

123a
second argument is premature. Thus, the Seventh
Circuit held in Estremera that the lack of library
access can, in principle, be an “impediment” to the
filing of a collateral attack. The Seventh Circuit
reversed 2255 denial petition and remanded for a
prompt evidentiary hearing); and other federal circuit
courts have held that a prison law library’s failure to
provide a copy of the AEDPA constitutes an
unconstitutional impediment for purposes of 28
U.S.C. § 2244 (d) (1) (B), see Egerton v. Cockrell, 334
F.3d 433, 439 (5th Cir. 2003); and Whalem v. Early,
233 F.3d 1146, 1148 (9th Cir. 2000) (en banc)
(Reversed and remanded for a prompt evidentiary
hearing as to the unavailability of AEDPA in the
prison law library was an “impediment” to filing an
application, see 28 U.S.C. § 2244 (d) (1) (B)).
(emphasis added).
Therefore, Movant Simmons, Jr., argues firmly that
he is entitled to a prompt evidentiary hearing to fully
develop the record as to the timeliness of 2255 Motion
via § 2255 (f) (2), in light Mills in which states that
Ronrico Simmons, Jr. was incarcerated at the Wayne
County Jail, he had access to the Wayne County Jail
law libraries, see ECF No. 50-4 filed 09/20/18 PageID.
313 Page 1 of 1, however Movant Simmons, Jr. will
testify to consistent with his Supplemental Affidavit
attached herein as Exhibit B, that the Wayne County
Jail law library offers “no federal law” or “federal
forms” as Mr. Simmons, Jr. needed the ADEPA
statute of limitation; Rules Governing 2255
Proceedings; Legal Materials, and a computer that
accesses federal law cases also the guidance of a
experienced Law Clerk in which is available at every
federal Law Library at FBOP facilities, thus while

124a
being housed at Wayne County Jail was an
“impediment” to the filing of his 2255 Petition, thus
the such impediment was removed on as early as
Ronrico Simmons, Jr.’s arrival at FDC-Milan on
August 29, 2017 or when the F.B.O.P. Sentence
Computation Data Sheet reflects that Mr. Simmons,
Jr. was actually committed on September 27, 2017,
see Exhibit A. Thus, Movant Simmons, Jr., states that
his 2255 Motion was filed on August 13, 2018,
therefore either starting the statute of limitations
period via § 2255 (f) (2), from August 29, 2017 or
September 27, 2017, on either date Movant’s 2255
Motion has been timely submitted via 28 U.S.C.
§ 2255 (f) (2), in the matter herein. A prompt
evidentiary hearing is warranted in the case herein,
see Estremera v. United States, 724 F.3d 773, 777-78
(7th Cir. 2013) (In Estremera he argued that he was
entitled a new one-year clock via § 2255 (f) (2), thus as
the result Estremera being in “special management
unit” and could not use its law library. He
characterizes the lack of library access between June
2008 and July 2009 as an “impediment” of the
government’s creation and contends that a new oneyear
period
began
of
the
governmental
“impediment” that occurred in the matter herein
which entitles him to reset clock to begin on August
29, 2017; or September 27, 2017, thus rendering his
2255 Motion timely via 2255 (f) (2), when filed on
August 13, 2018. (emphasis added).
CONCLUSION
In conclusion, Movant Simmons, Jr., concludes that
this Honorable Court should either recommend within
it’s Supplemental Report and Recommendation that

125a
Movant’s 2255 Motion is timely via § 2255 (f) (2); or
alternatively GRANT a prompt evidentiary hearing
to fully develop the record as to an governmental
“impediment”, thus timely via § 2255 (f) (2), in the
case herein.

Date: 02/24/19

Respectfully Submitted,
/s/ RonRico Simmons
Mr. RonRico Simmons, Jr.
#51225-039
FCI-Milan
P.O. Box 1000
Milan, MI. 48160-0190

126a
Certificate of Service
I, Ronrico Simmons, Jr., certify that on February, 24th,
2019, I mailed by First Class U.S. Mail the original
copy of my pro se Supplemental Brief to this
Honorable Court and one copy to the opposing party
listed below herein:
AUSA Janet Parker
U.S. Attorney’s Office
101 First Street, Ste. 200
Bay City, MI. 48708-5747
Date: 02/24/19

/s/RonRico Simmons
Mr. Ronrico Simmons, Jr.
pro se Movant

NOTE: I, Ronrico Simmons, Jr., swear and declare
under penalties of perjury that, I handed over my pro
se Supplemental Brief to the FCI-Milan prison
officials on Sunday, February 24, 2019, for mailing to
this Honorable Court and the opposing party listed
above herein, thus pursuant to the “Mail-Box Rule”
of the U.S. Supreme Court’s Ruling in Houston v.
Lack, 487 U.S. 266 (1988), thus my Supplemental
Brief are considered filed and are timely submitted in
the case herein.
Date: 02/24/19

/s/RonRico Simmons
Mr. Ronrico Simmons, Jr.
pro se Movant

127a
EXHIBIT A (A copy of Sentencing Monitoring
Computation Data Sheet dated November 29, 2017).

128a
MILBA 540*23 * SENTENCE MONITORING
PAGE 001
* COMPUTATION DATA
AS OF 11-29-2017
*
*

11-29-2017
09:30:37

REGNO..: 51225-039
NAME: SIMMONS, RONRICO JR
FBI NO ................... : 643240EB5
ARS1 ....................... : MIL/A-DES
UNIT ....................... : F UNIT
DETAINERS .......... : NO
DATE OF BIRTH: 03-23-1980

AGE: 37

QUARTERS ............ : F02-012U
NOTIFICATIONS: NO
HOME DETENTION ELIGIBILITY DATE: 12-102030
THE FOLLOWING SENTENCE DATA IS FOR THE
INMATE’S CURRENT COMMITMENT. THE
INMATE IS PROJECTED FOR RELEASE: 06-102031 VIA GCT REL
-----CURRENT JUDGMENT/WARRANT NO: 010----COURT OF JURISDICTION .............: MICHIGAN,
EASTERN
DISTRICT
DOCKET NUMBER ...........................: 14-CR-2062801

129a
JUDGE................................................: LUDINGTON
DATE SENTENCED/PROBATION
IMPOSED ..........................................: 08-31-2016
DATE COMMITTED..........................: 09-27-2017
HOW COMMITTED .......................... : US DISTRICT
COURT
COMMITMENT
PROBATION IMPOSED.................... NO
FELONY MISDMNR FINES COSTS
ASSESS ASSESS
NONCOMMITTED.: $200.00

$00.00

$00.00 $00.00

RESTITUTION...: PROPERTY:
NO SERVICES: NO
AMOUNT: $00.00
------------CURRENT OBLIGATION NO: 010-----------OFFENSE CODE ....... : 391
OFF/CHG: 21:846 CONSPIRACY TO POSSESS
WITH INTENT TO DISTRIBUTE AND
TO DISTRIBUTE ONE KILOGRAM OR
MORE OF HEROIN, CT 1. 21:856(A)(1)
WILLINGLY CAUSING OTHERS TO
MAINTAIN DRUG HOUSE, CT 2.
SENTENCE PROCEDURE ..................... :3559 PLRA
SENTENCE
SENTENCE IMPOSED/
TIME TO SERVE ............................... : 190 MONTHS
TERM OF SUPERVISION ......................... : 5 YEARS
DATE OF OFFENSE ............................... : 08-01-2012

130a
EXHIBIT B (A copy of Ronrico Simmons, Jr.; and
Affidavit of Benjamin P. Foreman).

131a
Affidavit of Ronrico Simmons, Jr.
I, Ronrico Simmons, Jr., swear and declare under
the penalties that my statements below herein are
true to the best of my knowledge, information and
belief.
This is a Supplemental Affidavit to support my 2255
(f) (2) motion and establish an entitlement to a prompt
Evidentiary Hearing in this matter.
1.
While at the Wayne County Jail, I merely had
access to state law, however as the result of me being
convicted in federal court state law was of no benefit
to me.
2.
Although I did arrive at FDC-Milan on August
29, 2017, and was there for several weeks “if” you
review my Exhibit A, Doc. # 44, BOP Computation
Sheet clearly lists my commitment as September 27,
2017; and the FDC-Milan does not actually have a
Law Library, however merely a Law Library
computer within the Housing Unit itself, thus there is
no experienced Law Clerks or any Law Clerks to aid
and guide me so for me that made it rough to begin
legal research not having “any idea” where to start.
3.
Upon arrival at FCI-Milan, I quickly visited the
Law Library and I met Law Clerk Benjamin P.
Foreman and he guided me and helped me to navigate
the federal Law Library and what I needed to prepare
a 2255 Motion from getting legal forms to ordering
Transcripts.
4.
I did not have the opportunity and access to a
federal Law Library and assistance until September
27, 2017, thus pursuant to 28 U.S.C. § 2255 (f) (2), the

132a
impediment was removed on that date, however
alternatively the impediment was removed on August
29, 2017, when the new clock began under 2255 (f) (2),
therefore in either instance my 2255 Motion is timely
via 2255 (f) (2), thus a prompt Evidentiary Hearing is
required to resolve the timeliness claim in the matter
herein.
I, Ronrico Simmons, Jr., declare and certify under
penalty of perjury under the laws of the United States
of America pursuant to 28 U.S.C. § 1746 (1) that the
foregoing is true and correct.

Executed on October, 3 , Respectfully Submitted,
2018

/s/ RonRico Simmons
Mr. RonRico Simmons, Jr.
#51225-039
FCI-Milan
P.O. Box 1000
Milan, MI. 48160-0190

133a
Affidavit of Benjamin P. Foreman
I, Benjamin P. Foreman, swear and declare that my
statements below herein are true to the best of my
knowledge, information and belief.
This Affidavit is being submitted to tell the true
factual aspects of my personal knowledge in reference
to Ronrico Simmons, Jr. in reference to the timeliness
of his 2255 Motion, thus a prompt Hearing is
warranted.
1.
I, have been a FCI-Milan Law Clerk since
August of 2009; and before that I was a FCI-Gilmer
Law Clerk in Glenville, West Virginia.
2.
I, have helped 100’s of federal prisoners
navigate themselves through the federal Law Library
system and aided them to obtain Transcripts and
other federal documentation essential to fighting their
criminal case via 2255 Motion.
3.
I, being experienced Law Clerk at two federal
facilities for over a decade I can honestly say that very
few guys could navigate themselves through the Law
Library system without the guidance of me or our
other Law Clerk Mr. Bennett so, I can totally
understand how Movant Simmons, Jr. waited til he
arrived at FCI-Milan to seek the aid of an experienced
Law Clerk to help him.
4.
At FDC-Milan the federal detention center
there are no 2255 Petitions or other legal forms
available, however the only way to obtain them is by
contacting FCI-Milan Law Library Technician Ms.
Harkness via cope-out in which usually takes 7 to 10
days to receive the legal forms you requested, however

134a
the key is you have to know what you need and
without the benefit of experienced Law Clerk or
paralegal to aid Mr. Simmons, Jr. who knows nothing
at all about federal law and how to research & identify
errors rendered having the 2255 forms would have
been of no benefit to him anyhow because of the
(ADEPA); and the one-year statute of limitations in
which restricts your filing to giving a federal prisoner
one bite at the apple through 2255 Motion, thus your
one shoot must be an exhaustion of every colorable
issue that exist within Mr. Simmons, Jr.’s case so he
had to proceed with precision and wisdom.
5. Within a week after Mr. Simmons, Jr. arrived
at FCI-Milan he met me and I begin assisting him,
however due to the backlog, I have for assisting other
federal prisoners with their case and the time it took
to get all his Transcripts and etc. he did not file his
2255 Motion until August of 2018, however consistent
with 28 U.S.C. § 2255 (f) (2), it should be timely as the
“impediment” was not removed til he was committed
to the Federal Bureau of Prisons on September 27,
2017; or alternatively on August 29, 2017, in either
event “if” the clock starts from either his 2255 Motion
is timely and this Court should proceed to a Merits
Determination as occurred in Estremera. (emphasis
added).
I, Benjamin P. Foreman, declare and certify under
penalty of perjury under the laws of the United States
of America pursuant to 28 U.S.C. § 1746 (1) that the
foregoing is true and correct.

135a
Executed on October, 3rd, Respectfully Submitted,
2018.

/s/ Benjamin P. Foreman
Mr. Benjamin P. Foreman
#12658-040
FCI-Milan
P.O. Box 1000
Milan, MI. 48160-0190

